<html>
<title> - EUROPEAN COMMON FOREIGN, SECURITY AND DEFENSE POLICIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
 EUROPEAN COMMON FOREIGN, SECURITY AND DEFENSE POLICIES--IMPLICATIONS 
            FOR THE UNITED STATES AND THE ATLANTIC ALLIANCE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 10, 1999

                               __________

                           Serial No. 106-106

                               __________

    Printed for the use of the Committee on International Relations




 Available via the World Wide Web: http://www.house.gov/international 
                               relations



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-589 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate





                            C O N T E N T S
                              ----------                              
                               WITNESSES
                                                                   Page

Elmar Brok, M.E.P., Chairman, Committee on Foreign Affairs, Human 
  Rights, Common Security and Defense Policy, The European 
  Parliament.....................................................     4
Iain Duncan Smith, M.P. Shadow Secretary of State for Defence, 
  House of Commons, London, England..............................     9
John Bolton, Senior Vice President, American Enterprise Institute    28
Ambassador Robert E. Hunter, Rand Corporation....................    30
Peter Rodman, Director of National Security Programs, The Nixon 
  Center.........................................................    33
Dr. Simon Serfaty, Professor of U.S. Foreign Policy, Old Dominion 
  University.....................................................    36

                                APPENDIX

The Honorable Benjamin A. Gilman a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    50
Elmar Brok, M.E.P., European Parliament..........................    52
Iain Duncan Smith, M.P., United Kingdom..........................    57
John Bolton, American Enterprise Institute.......................    65
Ambassador Robert E. Hunter, RAND Corporation....................    79
Peter Rodman, The Nixon Center...................................    88
Dr. Simon Serfaty, Old Dominion University.......................    94






 EUROPEAN COMMON FOREIGN, SECURITY AND DEFENSE POLICIES--IMPLICATIONS 
            FOR THE UNITED STATES AND THE ATLANTIC ALLIANCE

                              ----------                              


                      Wednesday, November 10, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    The Committee on International Relations meets today to 
receive testimony on European Common Foreign, Security, and 
Defense Policies--Implications for the United States and the 
Atlantic Alliance.
    We are privileged to have before us two distinguished 
foreign visitors--Chairman Brok of the Committee on Foreign 
Affairs of the European Parliament, and Mr. Iain Duncan Smith, 
Shadow Secretary for Defense in the British House of Commons.
    We welcome you both and also the next panel of 
distinguished experts on our topic today.
    The United States has, since the end of the Second World 
War, supported in various ways what is sometimes called the 
European Project, the gradual unification of Europe.
    Postwar statesmen, confronted with a continent largely in 
ruins, decided that an ever-closer union was the solution to 
decades of on-and-off war. If Europeans could unite into one 
entity of some sort, they would be less likely to make war on 
one another. That project is now being carried out through the 
European Union.
    The United States also set its own stamp on European 
security and defense policy by leading the North Atlantic 
Treaty Organization. Fifty years old, NATO has proven to be the 
most successful defensive alliance in history.
    NATO, having expanded several times, most recently to the 
east, is now being challenged. Some Americans and Europeans 
call the United States to end its role in Europe because they 
think that it is time for Europeans to go it alone. Others 
profess to support a continued role for the United States, but 
press for changes to European security structures that would 
leave us without influence commensurate with our contribution, 
or would undermine other members of the NATO alliance not part 
of the European Union.
    I have felt that American support for European unification 
was appropriate. Presidents of both parties have a long history 
of supporting unification. If unification is what our 
democratic, European friends want, we ought to support it, but 
we should not be blind to the problems it may cause for our 
Nation.
    The problems of European unity, as well as the advantages, 
are noticeable today in the area of our economic relations. 
That, however, is not the topic of this hearing. But I believe 
that some of our present trade problems with Europe may be 
avoided with the advent of greater European political and 
foreign policy unity.
    The powers of the EU in Brussels have not been responsible 
for considering the security implications of decisions on trade 
and development. These have been solely the concerns of the 
national governments. If a security consciousness can permeate 
the EU, it might take a different view of Iran, for example.
    On the other hand, we need to be concerned as tested 
security and political structures change. We can't force 
Europeans to organize themselves in a manner most convenient 
for us, but we can let them know about our concerns.
    NATO may have come under some unexpected criticism in this 
country of late, but perhaps the only thing that is more likely 
than European agriculture policy to upset Americans is the idea 
that the EU wants to displace NATO as the main security 
structure in the Euro-Atlantic area.
    European political, foreign policy and security unification 
clearly poses a host of challenges for the United States.
    We may have a Mr. Europe to call, but will he be able to 
talk back without checking in with 15 captains?
    Will European foreign policy be the least common 
denominator?
    Will Europeans get together mainly about the fact that they 
may resent American initiatives?
    Will Europe really develop a military force that will 
operate independently of NATO and the United States?
    Will Europe divert resources and forces away from NATO to 
create independent capabilities? If so, who will cover the 
slack created in those NATO functions, especially with European 
defense spending on the downturn?
    Will the EU discriminate against the non-EU European NATO 
allies?
    These are among the questions I hope we can address during 
today's session.
    At this time, I would like to turn to the Ranking Minority 
Member, Mr. Gejdenson, for any opening statement he might have.
    Mr. Gejdenson. Thank you, Mr. Chairman. I commend you for 
holding these hearings, and I think it is terribly important 
for us to develop an understanding with our European allies 
about security.
    I feel that it is time for Europeans to take a greater 
role. The Europeans will hear conflicting responses from 
Americans. We ask them to take more of the burden and then, as 
soon as they do, we will be concerned about their going off on 
their own course.
    I think as democratic nations with similar goals, it is 
important for us to be more equal partners, and I think it does 
make sense for Europe to join together to be able to carry out 
its responsibilities. The lesson of the battle in Kosovo is 
that the Europeans have to figure out a way to have the various 
assets necessary for robust engagement, technologies in air and 
ground and missile systems.
    Looking to the United States, you cannot blame our European 
friends for being confused. We saw the Senate rejecting the 
test ban treaty, and a hundred Members of the Republican Party, 
including the vast majority of the Republican leadership, 
voting against Mr. Bereuter's resolution, simply commending our 
involvement in NATO. We would have to excuse our European 
friends if they are somewhat confused by the actions here in 
Washington.
    So I am thrilled that you are holding this meeting, Mr. 
Chairman. It is an important discussion that we should 
undertake.
    Chairman Gilman. Thank you, Mr. Gejdenson. Are there any 
other Members seeking recognition?
    Mr. Chabot?
    Mr. Chabot. No.
    Mr. Sherman. Mr. Chairman.
    Chairman Gilman. Mr. Sherman.
    Mr. Sherman. I would like to amplify what the gentleman 
from Connecticut said about burden-sharing. I think it is 
perhaps the biggest rip-off in history that the United States 
has been forced to bear the burden of defending democracy and 
freedom around the world while a block of countries richer than 
ourselves does so little, that they do less than half of the 
combat on their own continent, and do zero to protect South 
Korea and zero to protect Taiwan.
    I want to comment on the French and the European reaction 
to our proposals for missile defense. I don't know whether 
missile defense is cost-effective. That is a U.S. decision. But 
for the French to tell us that we need shared risk is to add a 
level of chutzpah to international affairs.
    Because what is the risk that the missile defense system is 
supposed to deal with? It is basically nuclear weapons on 
ballistic missiles from rogue states. Which country in the 
world--which democracy in the world--has done the most to make 
sure that rogue states may get nuclear weapons and ballistic 
missiles? Well, France. So France says we should have a shared 
risk, a risk they helped create.
    Not only that, they insulate themselves from that risk by 
the policy of accentuating it. That is to say, I don't think 
that Iranian missiles are going to get Paris if Paris dollars 
are flowing to create those missiles. So they buy off the 
Iranians by giving them the tools necessary to destroy 
Americans, and then say that we should live under shared risk.
    Obviously, there are nondemocratic countries, particularly 
Russia, which has a much worse record than France on providing 
technology to Iran and others; but among the democracies, the 
French have been the most critical of us protecting ourselves 
from the risk that they have done so much to create.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Sherman.
    Is there any other Member seeking recognition?
    If not, our first panel consists of Mr. Elmar Brok and Mr. 
Iain Duncan Smith. These distinguished leaders were chosen as 
representing quite different schools of thought on European 
foreign policy and security unification.
    Mr. Brok is Chairman of the Committee on Foreign Affairs, 
Human Rights and Common Defense and Security Policy of the 
European Parliament. He is a senior Member of the center-right 
Christian Democratic party in Germany, and a leader of the 
Group of the European People's Party-European Democrats in the 
EP.
    He is also a long-time participant in the U.S.-European 
Parliament Exchange, which is how we got to know one another 
many years ago. He is a long-time observer of north Atlantic 
security affairs. He visits with us in Washington quite often.
    We welcome you, Mr. Chairman.
    This hearing is also a historic step in cooperation between 
the Congress and the European Parliament. We look forward to 
our forthcoming joint meeting in Brussels in January.
    Mr. Iain Duncan Smith is Shadow Secretary of State for 
Defence in the British Parliament. That makes him the main 
spokesman for the conservative opposition party on defense 
issues. He is a graduate of Sandhurst and served with the 
British Army in Northern Ireland and Zimbabwe. He is known for 
his special interest in Euro-Atlantic cooperation on a 
ballistic missile defense capacity and would not, I believe, be 
offended if I were to describe him as a committed Euro-skeptic.
    Gentlemen, your remarks will be entered in the record and 
you may summarize them as you see fit.
    Chairman Gilman. Chairman Brok, would you begin with your 
testimony?

STATEMENT OF ELMAR BROK, M.E.P., CHAIRMAN, COMMITTEE ON FOREIGN 
AFFAIRS, HUMAN RIGHTS, COMMON SECURITY AND DEFENSE POLICY, THE 
                      EUROPEAN PARLIAMENT

    Mr. Brok. Thank you very much, Mr. Chairman.
    Ladies and gentlemen, it is a great honor to address the 
Congress of the United States and, in particular, the 
distinguished Members of the International Relations Committee 
of the House of Representatives on the issue of the European 
defense and security identity after the EU Summit in Cologne 
and the Transatlantic Link. Everyone knows the enormous 
contribution made in the past by the U.S. to peace, democracy 
and freedom in Europe, especially in Germany. This is something 
which shall never be forgotten.
    Exactly ten years ago, I was dancing on the Berlin Wall 
before the Brandenburg Gate, and I knew from then on that this 
opening of the Berlin Wall was only possible because of the 
U.S. Congress and the United States Administration, and we will 
never forget this in Germany. I want to say this especially, 
now that we have the tenth anniversary of the fall of The Wall 
in Berlin. I was in a meeting with Mikhail Gorbachev, George 
Bush, and Helmut Kohl on Monday; and Helmut Kohl explained the 
same position, that without American policy over the decades, 
the reunification of Germany and Europe would never have 
happened. I would like to thank you for this today.
     Who could have thought, in the aftermath of World War II, 
that a Union would emerge out of the ruins of Europe, and that 
this Union would encompass 15 democratic nations with different 
traditions but united by common values? Who could have thought 
that this European Union would be about to welcome 12 new 
members in the near future, ten of them formerly incorporated 
in the Soviet Empire? Who could have thought that the mere 
existence of a European Union would change the whole pattern of 
interstate relations on the European continent?
    The European Union is a state under construction. The 
founding fathers--Adenauer, De Gasperi, and Schuman--decided in 
1950 to create a single market for coal and steel products. 
They had in mind the political unity of Europe, not just the 
free movement and the control of two items which were vital for 
producing guns and tanks at that time.
    The first European Community, for coal and steel, was 
followed shortly after by the attempt to create, with the 
support of the United States, a European Community for defense. 
Unfortunately the corresponding treaty was defeated in 1954 
before the French National Assembly.
    In 1957, the European Economic Community was created, and 
in 1987, a European single market was established. But the 
political dimension of the European construction was never 
forgotten. Every achievement was seen as one more step to the 
final goal: a politically united European Union, which makes 
war between its members impossible.
    The European Union, a name first used in the Treaty of 
Maastricht in 1992, is the implementation of this political 
project. Launched by Chancellor Kohl and President Mitterrand, 
this treaty put on track the European Monetary Union, the 
Common Foreign and Security Policy, and a policy for justice 
and home affairs.
    The EU has statelike features. It has an elected 
parliament, a court of justice and an executive sui generis. 
The Union has the power to make laws--called regulations and 
directives--applicable in our member states, just like Federal 
laws. Most of them are co-decided by the Council, acting by 
qualified majority, and the European Parliament. This is a two-
chamber model, like in the United States.
    The Treaty of Amsterdam, which entered into force earlier 
this year, is a continuation of the political project set in 
motion in the 1950's. It reinforces the Treaty of Maastricht in 
many aspects, such as the codecision procedure, but its main 
features can be seen in CFSP. The post of High Representative 
for CFSP as part of a new troika has been created. The 
integration of the Western European Union into the European 
Union is foreseen in order to give the EU an access to a 
military capacity; the so-called Petersberg tasks, which were 
defined in 1992 by the WEU Council of Ministers, have been 
included in the European Union. A new EU instrument has also 
been created, a common strategy which makes the use of majority 
voting in CFSP possible.
    The success of the European Union can best be measured by 
the reality of the European single currency, the Euro. The 
European Union is also the trading power in the world with the 
most widely-opened market. Finally, the European Union plays an 
active role in world affairs. The foreign aid of the European 
Union and its member states in 1997 amounted to $33 billion; 
that given by the United States amounted to less than $7 
billion. This is also part of burden-sharing.
    The success of the EU is not only the success of the 
Europeans. It is also your success, the success of the United 
States and of NATO. Isn't it a good sign for our future 
relationship that our new High Representative for CFSP, Mr. 
Javier Solana, was very recently Secretary General of NATO?
    NATO is an organization which has been preserving peace, 
democracy, freedom, and stability in Europe for 50 years and 
which will continue to do so in the foreseeable future. NATO is 
a free association of countries on both sides of the Atlantic 
Ocean, which links Europe, the United States and Canada. 
Conceived in a geopolitical environment, characterized by the 
division between two antagonistic blocks, NATO--unlike the 
Warsaw Pact and the Soviet Union itself--survived the collapse 
of the Berlin Wall and the Iron Curtain. One can say that NATO 
won the Cold War in a peaceful way. In fact, since 1989, NATO 
has shown a remarkable capacity to adapt to the new 
geopolitical context prevailing in Europe, wherein cooperation 
has replaced rivalry. But Europe itself is just on the way to 
doing so.
    Since 1990, the classical, regional, conventional wars are 
possible again, implicating the danger that the old rule of 
violence will come back to Europe. We cannot expect that the 
U.S. will continue to do the job of preventing or stopping war 
on the regional level in Europe for us.
    The way NATO took military action in and around Kosovo to 
protect a whole population from ethnic cleansing was one of its 
greatest achievements. At the same time, this war, fought on 
behalf of common democratic values, acted as a catalyst for 
Europe's consciousness because it became clear to the Europeans 
that no diplomatic action could ever be successful if it could 
not be sustained, if necessary, by military action. The Kosovo 
War will be considered in the future as a milestone in the 
history of the EU, because it was the key factor, which led to 
the declaration adopted on 4 June 1999 in Cologne by the EU's 
15 heads of state and government.
    The aim of this declaration was to provide the EU with the 
capacity for autonomous action backed up by credible military 
forces in order to implement the Petersberg tasks. This is to 
be done by incorporating the WEU into the European Union. 
Collective defense, however, will remain within NATO.
    The Cologne Declaration is in line with the decisions taken 
in 1996 in Berlin by the North Atlantic Council to develop a 
European security and defense identity within the Alliance. I 
quote ``taking full advantage of the approved CJTF concept, 
this identity will be grounded on sound military principles and 
supported by appropriate military planning and permit the 
creation of militarily coherent and effective forces capable of 
operating under the program control and strategic direction of 
the WEU.'' This is exactly what we are aiming at in bringing 
the WEU into the EU.
    What the ESDI will involve in the way of action and 
planning for action has been defined to some extent in Berlin 
and Washington. There can be European action within NATO which 
does not involve all NATO members with, for example, the use of 
combined joint task forces, and the Europeans may have a chain 
of command running down from the European Deputy Supreme Allied 
Commander--Europe.
    The other aspect of the ESDI is that of participation. 
Which countries will be involved? There are 17 European 
countries in NATO--11 of them EU member states and six 
currently outside the EU, although four have applied for 
membership. The WEU actually covers some 28 European countries, 
ten of them being full members and 18 being associated in one 
way or another.
    Recently in Bosnia or Kosovo, for example, other countries 
which may be considered European, like Russia and the Ukraine, 
have worked with NATO/WEU Members.
    So where is the ESDI? Is it to be built around the EU, even 
with its neutral member states, sometimes called ``non-
Allies,'' or around the European nations within NATO or around 
the WEU; or is it a broader concept which could include Russia, 
Ukraine, Georgia, Armenia and beyond?
    In my opinion, the European Union should be the focus of 
ESDI for the following reasons. Within the Amsterdam Treaty, we 
created mechanisms which will make the CFSP more effective, 
such as the principle of ``constructive abstention''. This 
enables member states--and those most concerned are likely to 
be our ``non-Allies,'' for example, the four countries not 
members of NATO--to abstain on a decision by the EU to take 
military action without preventing such a decision being taken 
at all. The abstainers would not be expected to participate in 
such military action, although all member states would be able 
to participate if so desired.
    Second, we also have established Mr. CFSP, the public face 
of our common foreign and security policy, together with the 
foreign relations commissioner, who will make our foreign 
policy more visible and coherent. He will be supported by a 
policy planning and early warning unit, a political and 
military committee, and by the relevant instruments of WEU, 
such as a military committee, a headquarters, a situation 
center, a satellite center and an institution for security 
studies, once the WEU has been incorporated into the EU, which 
may happen by the end of 2000.
    The European Union will consequently be able to decide and 
act more quickly.
    Third, if the European Union decides on military 
intervention in order to deal with a crisis, the door must 
remain open for non-EU members to take part, as is the case in 
the WEU. If the military action is conducted autonomously, the 
European Union must be able to invite other countries to take 
part in it by preserving its autonomy of decision under the 
CFSP. If the action is conducted by making use of CJTF, the 
NATO/WEU arrangements will prevail, which means that after the 
WEU's incorporation into the EU, the EU and the NATO will have 
to find the best format for their new Cupertino.
    I am pleased to see that NATO has been adapted in such a 
way that it enables the Europeans to conduct military 
operations with the means and capacities of the Alliance, by 
making use of a European chain of command.
    Fourth, finally, we cannot ignore the fact that while 
NATO's remit is limited to military matters, the EU cannot only 
be involved in, indeed undertake, military action, but also 
plan and finance postwar rehabilitation. The EU can provide 
humanitarian aid and economic assistance to reconstruct a war-
torn region, and it can decide on political measures such as 
the stability pact for Southeast Europe in order to bring an 
entire region closer to Europe and the Euro-Atlantic 
structures.
    Fifth, the EU with its common legal order, common market, 
common currency, common environment and social policy has 
created a common interest which is the base for a credible 
security and defense policy. The authority for our common trade 
policy is entirely in the hands of the Union--a fact that is 
important for the questions discussed here, too.
    Consequently, if we do not want to make a Freudian concept 
out of ESDI, the search for identity, we should be pragmatic 
and consider that the EU will be the basket in which ESDI will 
take shape. In fact, the EU can take over the responsibility 
for European-led operations, the sword being provided by the EU 
member states and their non-EU partners, a coalition of the 
willing, and/or by NATO.
    We know that some people in the U.S., without necessarily 
opposing the construction of a common security and defense 
policy for the European Union, fear that this would weaken the 
Transatlantic Link. For three reasons, I think that this fear 
is not justified. First, decoupling Europe from the U.S. would 
not be sensible at all because a strategic link which exists at 
present between both sides of the Atlantic Ocean is vital for 
peace and stability in the world.
    Second, discriminating between the European NATO allies on 
the basis, for instance, of whether they are EU members or not 
is not what we have in mind. We should offer everyone the 
possibility of joining the EU in a military operation if we 
think that it might be valuable.
    Third, the issue of duplication is a bit more complex. We 
should avoid unnecessary duplication, but extra capacity is 
needed. During the Kosovo war, the means and capacities of the 
Atlantic Alliance were used in some fields to their maximum. If 
the Europeans had been able to put more combat aircraft, more 
air refueling tankers, more electronic jamming equipment, more 
airlift capacity and so on into the battle, it would have been 
better for the Atlantic Alliance as a whole. I do not think 
that American public opinion would understand if the Europeans, 
in carrying out Petersberg tasks, have each time to ask the 
U.S. for help. This could lead to isolationism in the United 
States.
    Consequently, Europe must meet the need for burden-sharing 
by being prepared to spend more on its own security and defense 
policy, in line with the defense capabilities initiative 
approved in Washington. A strong Europe is in the interest of 
the United States because it would be a viable strategic 
partner sharing the same values and many interests.
    In conclusion, the European Union and the U.S. must work 
together to secure peace, security and prosperity in the world. 
A strong European Union, with its economic strength, its own 
currency and a credible foreign policy backed up by genuine 
military capacities will be the partner that the United States 
needs and has always asked for. Our collective responsibilities 
are immense: We must help Russia to find a new equilibrium 
after the collapse of its empire; we must help the peace 
process in the Middle East; we must help Africa to overcome its 
tribal wars and tackle its problems of underdevelopment; 
finally, we must make every endeavor to divert Asia from 
getting into a new arms race, above all when nuclear weapons 
are at stake.
    Finally, I am convinced that other countries are willing to 
join us in order to make the world better. Many of the issues 
we are faced with nowadays are not of a military nature. They 
are linked with economic development, illegal trafficking of 
all kinds, drugs, threats to the environment, ethnic hatred, et 
cetera. On these issues, it is possible to work together--
Europe, America, Russia, China, Japan, Africa. In order to 
achieve this, let us start by consolidating our Transatlantic 
Link on the basis of an equal partnership.
    A final appeal to you: Trust this Europe which is building 
itself and giving itself a security and defense dimension. I am 
convinced that President Truman, General Marshall and Dean 
Acheson, who helped us 50 years ago, would be proud of what 
they could see nowadays if they were still alive. Thank you 
very much.
    Chairman Gilman. Thank you, Elmar Brok.
    [The prepared statement of Mr. Brok appears in the 
appendix.]
    Mr. Duncan Smith, please proceed.

STATEMENT OF IAIN DUNCAN SMITH, M.P. SHADOW SECRETARY OF STATE 
         FOR DEFENCE, HOUSE OF COMMONS, LONDON, ENGLAND

    Mr. Duncan Smith. Mr. Chairman, first let me start by 
saying what a pleasure it is to come and address this 
Committee. Perhaps I can get my House to return the compliment 
to you or anybody else on this same subject. I am going to try 
to keep my comments reasonably short, because I know that you 
have copies of my written evidence.
    Chairman Gilman. Your full statement will be made part of 
the record.
    Mr. Duncan Smith. I will keep it quite narrow. Perhaps I 
can say from the outset that I want to ask the simple question: 
is the ESDI leading to a better defense for the Nations of 
Europe and for the United States, or is it now heading in the 
direction which is more likely to render the NATO alliance less 
powerful and less positive?
    First of all, by summarizing what the threat was, I have to 
say that I was one of those who for a long time after the fall 
of the Berlin Wall took the view that the nations of NATO, 
including the U.S.A., had misread the situation globally and 
had cut too far and too fast into their defense forces before 
recognizing exactly what the problems were likely to be over 
the next 10 or 15 years.
    One of the key areas is the knowledge that without the two-
superpower rivalry, we were likely to see regional conflicts 
over ethnic wars blowing up much more often than before because 
the restraining pressure placed by those two superpowers on 
their allies was now going to be missing. We have seen much of 
that take place; and as we have already seen, both the U.S.A. 
and my country and others in Europe to a greater and lesser 
extent have been sucked into those conflicts. We only have to 
look at the commitment levels of the armed forces in the United 
Kingdom to recognize that we are pretty much deployed all over 
the world involved in peacekeeping operations. I can rightly 
say up to about a month ago we were nearly 50 percent committed 
to peacekeeping operations, which is a pretty significant 
figure.
    What kind of a threat does that pose to what was the 
traditional defense posture of NATO, not just because there is 
a regional threat to Western interests and to trade interests, 
but then how does that become global? I guess really the main 
point to be made here was made earlier on by Congressman 
Sherman, who talked about ballistic missile threats.
    I have believed for a long time that the proliferation of 
ballistic missiles is the horse that got out of the stable, and 
there is no way that we are going to shut that door and keep it 
in. It's gone. We have to accept that the world that we see 
over the next ten years is more unstable and one which will 
progressively find some of these unstable nations armed with 
weapons of mass destruction with the capability to project them 
at either the U.S.A. or my country or the countries of Western 
Europe. That is what makes this issue of NATO all the more 
important now after a period when too many cynical people had 
assumed that threats to their homeland were gone.
    I am glad to see that the U.S.A. has recognized this and 
started on a ballistic missile defense program. I am fully in 
support of that, and I wish that the nations of Europe would 
wake up to that immediately and try to involve themselves with 
the U.S.A. in that same program. However, this is not 
happening, and that has got to be a clear concern for the 
U.S.A. because what the U.S.A. is doing at the moment has a 
knock-on effect for Europe.
    I am also interested to note that President Chirac's 
comments created a storm over here. I noticed that Mr. Rubin--
perhaps I should say on the edge of diplomatic language 
retaliated in criticism of France, and some might say that he 
is justified in doing it. But, importantly we are beginning to 
see the tensions emerging between the nations of Western Europe 
and the United States, and I believe that much of the reason 
for that lies at the door of the ESDI process as we see it 
emerging. There was a major change in direction a year ago. 
Yes, we have heard about the Petersberg agreements and what we 
are meant to be doing in terms of more low-level unification in 
terms of defense in Europe. What I believe happened a year ago 
was that there was a major change. A year ago my government 
decided that they would agree with France, hence the St. Malo 
agreement to accelerate that process and to drive it forward to 
a much bigger scheme which would involve a much greater range 
of military capacity in Europe. At that stage, it was said 
within NATO, but as we have seen from there, through Cologne, I 
believe actually that it is progressively being moved, by those 
who would like to see it moved out of NATO, separate from NATO. 
You will see that is becoming quite clear.
    Some of the phraseology, both in the St. Malo and the 
Cologne agreements, speaks louder than any words I can use 
here. In St. Malo it was made clear that, ``the European Union 
will also need to have recourse to suitable military means, 
European capabilities predesignated within NATO's European 
pillar or national or multinational means outside of the NATO 
framework''.
    If you have a look at what was reported by the individual 
nations and their own press, you begin to see how this was 
interpreted. In France, it was interpreted for the first time 
as ``an autonomous capability for action backed by credible 
military forces'' to take place within the E.U. common foreign 
and security policy. Around Europe, that became much the same 
case.
    It was greeted as a change of heart for Britain. For the 
first time, Britain apparently was no longer going to block any 
separate defense capability. It was talked of in Spain as ``the 
new openness'', and I gather that the German foreign minister, 
Joschka Fischer, called the St. Malo initiative ``useful from 
the viewpoint of European policy.''
    My point that I am making here is that about 12 or so 
months ago a shift took place, and critical to that shift was 
the U.K. At that time, we were told that the U.S.A. didn't have 
a problem with that because, of course, at the Washington 
agreement, the Washington meeting, it was made quite clear that 
the European defense initiative would somehow find favor. Yes, 
I read the pages relevant to that--page 65 and on the back of 
65--and it is quite interesting to note that throughout the bit 
dealing with the ESDI, what you find is that the organization 
in Europe which is referred to is the WEU. It is the WEU. Only 
one reference is made outside of the main points to the EU, and 
that was in a final paragraph at the end.
    My point is that since this was agreed, what has happened 
across the EU is that now, as you heard from Mr. Brok, the WEU 
is to be wound progressively into the EU. That was never made 
absolutely clear at the time of the Washington Summit, and I 
think that tells us exactly where this is going.
    It is the EU, which is the political body; and if you talk 
about winding what had previously been a defense identity 
within NATO into the political body of Europe, what you begin 
to see is a political military structure that is progressively 
going to drive itself outside of NATO. We hear, endlessly, 
justification for this process is that we will do more, it will 
be done better.
    Then, as you see from my testimony--I put a series of 
tables together for expenditure and the quality of expenditure 
across the nations of Europe; what you see there is quite the 
contrary. What you see in countries--in Germany and Italy, 
Spain included--you see a dramatic falling off in defense 
expenditure.
    But even that level of defense expenditure hides a truly 
important factor which is the quality of defense spending. In 
far too many of the countries in Europe, these are very much 
dominated by what I would call conscription-based armies, which 
means you spend a lot of the proportion of your money on troops 
and very little, by comparison, on equipment.
    Not much of that is likely to change. Even the German 
foreign minister made that quite clear about a week ago when he 
accepted that while they will try to reduce some of that 
spending on conscription, it will never go away completely. It 
is seen as a process of social engineering, which is a fair 
political point, but it leads us to the conclusion that the 
quality of that spending is not likely, necessarily, to rise to 
any great degree. Isn't that really the nub of the point?
    From the U.S.A.'s point of view, you say quite rightly you 
want the nations of Europe after Kosovo to be able to do more 
and do it better. My answer to you, very simply, to that 
question, is how do you do it? You have to either spend more 
and spend it better; no amount of new structures in Europe that 
we designate in the ESDI are going to change that if, at the 
end of the day, the capacity of your armed forces is not up to 
the job of deploying, and deploying in such a way as to resolve 
the problem of the conflict. Kosovo highlighted that; and the 
one point about Kosovo that showed that, ironically, the U.K.'s 
position at the moment is much closer to the U.S.'s than any 
other nation in Europe, both in quality terms, you will see 
from my figures--both in R&D and equipment--that the U.K. 
spends very similar amounts and proportions to the U.S.A., 
whereas most of the nations of Europe do not. That is the key 
point.
    I see this process of the ESDI as a political maneuver that 
is being hijacked to take away from the real question which has 
to be answered: how will the nations of Europe ante up to their 
major responsibilities in defending both Western Europe, with 
the United States and Western interests which I define inside 
my submission; and then I come back to ballistic missile 
defense.
    I actually believe that there is now a very serious threat 
emerging from rogue nations. Across Europe, no real discussion 
is taking place; hardly a word is said about this. You can't 
provoke any discussion. It is for two reasons: A, they don't 
want to spend the money; and B, it reminds them very seriously 
of how important the link with the U.S.A. is because most of 
the development has been taking place over here. Personally, I 
wish that would change, and I would like to see all of the 
nations of Europe recognize the importance of defending 
themselves against this potential threat.
    So what I am really proposing is that now, as ever, or more 
than ever before, it is time for NATO to think of itself again 
as one unit. In other words, the countries that make up NATO, 
the nations that make up NATO do have minimum obligations, and 
that is in terms of defense expenditure and the quality of that 
expenditure and there is no way around that. That is the key 
point to be putting across and that is never answered when we 
get to that question. Ballistic missile defense needs to be 
taken on as a NATO Program, and it is time the nations of 
Europe woke up to that, and I think the ESDI allows them to 
slide away from that responsibility far too easily.
    I would say that the key to this is the U.K. It is the key 
because, as I said, of its defense spending and quality of 
spending and the fact that almost alone in Europe it has the 
ability to project troops and equipment to places around the 
globe. Quality is every bit as important in the U.K. as I 
believe it is over here. We have seen that in Kosovo, in the 
Gulf. It is a capable ally that is capable of backing up what 
its obligations are.
    I think that the trouble with the ESDI from the U.S. point 
of view is the danger as we get sucked more and more into this 
political framework, what you get more in terms of the 
framework is less in terms of the military potency in response 
to your requirements.
    I do not want to see that. I believe that the nations of 
Europe and the U.S. have common purpose in defending Western 
Europe and the continental United States and North America, as 
well as joining together to face threats to Western interests 
around the globe. Now is surely not the time to create an 
artificial divide in NATO that will only exacerbate the 
problems and the rows.
    The comments from Mr. Rubin are an example of what happens 
if you release some of the anti-American sentiments that are 
nascent in politicians' minds across Europe. This gets driven 
away from the core of NATO, and that will only create problems 
for NATO to act cohesively in the future.
    I say that I believe what we need to do is restate the 
preeminence of NATO, restate the reality that nothing needs to 
be done beyond NATO. NATO has always had the capacity for 
individual nations to operate by themselves or in groups, 
operate with the heavy lift, including the intelligence. We 
need to restate that, restructure around that, and not look for 
this division. I would urge you here in Congress to think very 
carefully about offering a blank check to what is going on in 
Europe.
    [The prepared statement of Mr. Duncan Smith appears in the 
appendix.]
    Chairman Gilman. Thank you very much, Mr. Duncan Smith. We 
appreciate the testimony of both of you very much.
    Mr. Duncan Smith, in your September, 1999 remarks at the 
Enterprise Institute, you stated that European contributions to 
the ballistic missile defense project would, and I quote, 
``require some major revisions to the European project.'' Can 
you tell us why that case would be your conclusion, and could 
Britain not lead European support of a ballistic missile 
project under any foreseeable European security arrangement?
    Mr. Smith. Yes, I would very much like my country to lead 
and persuade the nations of Europe, Western Europe, to get on 
board and come alongside the U.S. in the process, in the 
development and certainly in the deployment of such defense 
structures. I believe, typical sometimes of the generosity 
here, that the U.S. would be willing--from what I understand 
from discussions with Administration officials and Members of 
this House, be willing to deploy such a system in Europe; and I 
think it is up to the nations in Europe to actually face up to 
that and come alongside and do something about it.
    I think the problem is that too many in Europe don't want 
to be reminded of the need to increase defense expenditures, 
certainly to improve the quality of it. Second, I think the 
preeminence of the U.S. in terms of the technology and 
capability would be a huge reminder in this case. Ballistic 
missile defense reminds them and seems to move in the opposite 
direction to what is so often stated in these agreements, 
including Cologne and after.
    Chairman Gilman. Mr. Brok, you said recently, ``I quite 
like the idea of including Article V of the WEU treaty, 
commitment and mutual assistance, in a protocol to annex to the 
EU treaty to which those countries, so wishing, could sign 
up.''.
    Mr. Brok, could you comment further on that? What reaction 
have you received from the neutral EU members to that proposal? 
If the EU treaty were to incorporate an Article V guarantee, 
would non-NATO EU members essentially be receiving a back-door 
security guarantee from the United States?
    Mr. Brok. First of all, Mr. Chairman, I do not need to 
deliver speeches as a member of the opposition party for my 
internal country affairs on the basis of NATO, because NATO is, 
in my opinion, much too valuable to misuse it for such 
purposes.
    Second, to answer your question directly, I believe that it 
would be very helpful to increasingly integrate the neutral 
countries of Europe into our common responsibility. Due to the 
internal situation of such neutral and nonallied countries, it 
is with difficulty that they go directly to any defense 
alliance. But if we put Article V into a protocol of the EU 
treaty, then it would be an easier after a time of cooperation 
on that basis, that such Congresses individually sign up for 
membership, which I think would be in our common interest.
    I know, for example, that many parties in such countries--
in Sweden, in Finland, in Austria--would like to support such a 
proposal. It is more or less a problem of the social democratic 
parties of such countries. Anyway, I can imagine that it will 
be part of the intergovernmental conference which will take 
place next year.
    Chairman Gilman. Mr. Duncan Smith, some of our Members are 
beginning to question a new strategic concept that has been 
adopted by NATO at the Washington Summit, which says that the 
Alliance should be prepared to defend our shared common 
interests and values when they are threatened. Those who 
question the strategic concept point out that it seems to 
bolster the new doctrine of humanitarian intervention that has 
been used to justify the NATO military intervention in Serbia.
    Do you believe that NATO itself may be suffering from 
strategic fuzziness in conceptualizing its fundamental purposes 
in a new post-Cold War environment?
    Mr. Duncan Smith. I do think that is a criticism that NATO 
has to take on board. I have watched with interest the 
development of this new humanitarian doctrine with some 
cynicism. One has to look across to Chechnya and ask what is 
different about the humanitarian option over there; and the 
answer is, practical politics is the difference. That is what 
NATO has always been about, deciding how and when it can 
operate. The same goes for politics of all nations. They decide 
what they can do and can't do, what is within the scope of 
their power and capability, and they try to do good within 
those limitations.
    Now, I think, therefore, if there is less said about pure 
humanitarian intervention and more about what we believe to be 
the defense of natural and classic Western interests and 
Western values, then we get a much closer concept or much 
easier concept of how NATO will operate. That brings into clear 
perspective the justification for the operations in Kosovo, 
much as it did in the Gulf, and that should form the basis of 
the doctrine.
    Chairman Gilman. Thank you.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Brok, my sense here is that the new 
proposal simply provides a process within the EU for Europeans 
to rationalize their defense procurement and manufacturing. Am 
I wrong on that? Basically what you look to this new process to 
do--Mr. Smith says I am wrong--is to use the EU's structure to 
develop a European-wide manufacturing system--what countries 
are going to be responsible for what, what items they are going 
to buy--and you feel that will give you a better ability to be 
an equal partner in NATO, as well as, obviously, some 
independent ability to act?
    Mr. Brok. No, I do not think this is the main purpose. The 
main purpose is to enable Europeans to do something like in the 
former Yugoslavia where, with certain capacities, we could have 
avoided war. I think such a capacity must be effective, and 
this is then a real burden-sharing.
    Mr. Gejdenson. Do you mean in the military sense?
    Mr. Brok. Both in prevention policy, and also financial aid 
and trade could be a part of that. If I could follow my partner 
from the U.K., then Mr. Marshall pursued with the Marshall Plan 
a wrong policy; but I think he created a right policy in order 
to change Europe in a positive sense.
    Second, I believe Europe must have also military 
capacities, because if we are to be able to prevent war in 
negotiations, we must show that we have military capacities to 
do so. In this way, also, we can be part of a better burden-
sharing. If we organize our defense policy in a better way, we 
can also take more burden-sharing in actions around the world 
together with the United States. At the moment, we have no 
capacities to do so. We could also make better use of our 
budgets in order to combine our abilities. To this procurement 
and manufacturing question, this may be a result of the 
internal market, but is not at the output of ESDI. This is 
output of the common market, when you see the mergers of 
different companies; and I think this European defense 
initiative has nothing to do with getting Europe in a better 
position to American----
    Mr. Gejdenson. That wasn't my question, although that is 
the one that you obviously wanted to answer at this stage.
    My question really, is that what you have got to do? You 
can't have each of the European countries trying to manufacture 
every item; you can't have each of the European countries 
trying to sustain a defense budget that has every kind of 
system in it. You have got to rationalize not just the 
manufacturing, but the choices that you are making 
collectively, and the EU process will do that for you?
    Mr. Brok. It will do this in a certain way, that is true.
    Mr. Gejdenson. I think that is a positive development.
    Mr. Duncan Smith----
    Mr. Brok. If I may say just one more word about it, I 
believe very much that this European ability will be brought 
also to the closer cooperation of armies, that we have a common 
procurement policy.
    Mr. Duncan Smith. I just wanted to make the point that 
again this really should be seen in a wider NATO context. If we 
talk about nationalization of defense production, quite right, 
you don't want lots of poor-quality companies running around 
not being able to produce what is required. But then you can't 
have ``fortress Europe'' defense production.
    Actually this speaks volumes about a transatlantic 
involvement, both U.S. and European manufacturers. If you take 
the politics out of it, what you see across from Germany and 
Britain are those manufacturers making that decision. They are 
saying if we can within Europe, we do, but we also recognize 
that we need to work with the U.S.A.
    Mr. Gejdenson. It seems to me that the present activities 
just within NATO haven't achieved those goals, as Kosovo 
proved. When we went into Kosovo, we had, I think, the best 
political cooperation we have ever had on an activity, but 
America was just technologically in a different place and able 
to operate in conditions that Europeans couldn't. So the 
current structure hasn't had the political capability of 
bringing the Europeans to a point where they have made those 
decisions so they can be an equal partner. Maybe this new 
structure will then give the Europeans the ability within NATO 
to come to that point.
    Mr. Duncan Smith. You are going to see that take place 
because there is not the defense base to sustain the level.
    Mr. Gejdenson. Let's assume that you are correct. What is 
the danger of having a unified Europe, working with a unified 
United States all within NATO? What is the danger of using the 
EU to help make the decisions within Europe so that instead of 
the United States trying to negotiate with Italy, with England, 
France, Poland, and all of these other countries, that the 
Europeans rationalize, and in that process there is one place 
for the Americans to have contact.
    Mr. Duncan Smith. What you will see from the companies is 
that they will do it themselves. When you said the capacity 
Kosovo showed, actually, the U.K.'s capacity is much closer to 
the U.S.'s because their spending levels and the quality is 
much higher than the others.
    If you are dealing with defense budgets that are falling 
and poor quality, you will end up with a ``fortress Europe'' 
for the wrong reasons that won't produce that capacity.
    Mr. Brok. I would like to make one short remark.
    To work together is to use synergy effects, and therefore a 
European procurement agency makes sense. But the biggest 
European armament company, which was set up in France, is owned 
partly by the United States because of the Daimler Chrysler 
merger. Therefore, I do not see the danger of any ``fortress 
Europe.'' .
    Mr. Bereuter. [Presiding.] Mr. Brok, Mr. Duncan Smith, it 
is nice to see you both here. I wish I had been here for all of 
your testimony.
    We will call on Dr. Cooksey from Louisiana for the five-
minute rule.
    Mr. Cooksey. Mr. Duncan Smith, in looking at your 
testimony, do these numbers for your defense budget reflect the 
cost of the war in Kosovo?
    Mr. Duncan Smith. No, the extra costs from Kosovo would 
presumably have to be factored in. Those don't have that 
factored in yet. But in terms of the overall spending, I don't 
think that they will shift it dramatically. A couple of nations 
will have an effect. Certainly not in the R&D and procurement 
side; you will not see any shift in proportionate terms.
    For a country like U.K., the treasury has already agreed 
this is an exceptional spend, and therefore it isn't directly 
out of the defense budget, as it were.
    Mr. Cooksey. So the percentage of defense spending----
    Mr. Duncan Smith. You have to take the peaks out and even 
out the trend. I think the trends are in here, which are 
falling budgets, falling quality for the most part.
    Mr. Cooksey. You made a statement; you said that the 
political-military structure will drive itself out of NATO. 
Would you elaborate on that? You predicted that could happen.
    Mr. Duncan Smith. My concern is that the whole process as 
we have certainly seen it shift in the last 12 months has moved 
beyond what was originally conceived, I believe, in Petersberg, 
which is more about consolidating and procurement and some of 
the smaller arrangements. It has moved to a much bigger 
process, which is about moving the European defense initiative 
into the EU, bringing in the WEU and creating a political-
military structure which has a life of its own, and I believe 
will actually play to this idea.
    I look back over the development of the European Union over 
the last 25 or 30 years, and I believe there is a natural 
process that takes place which begins to create an identity 
which separates itself. In this case it creates an artificial 
divide. I have never believed that there was a division between 
Europe and the U.S.A. in NATO. The beauty of NATO was that it 
believed in the concept of partnership of nations within NATO. 
In creating a European dimension, I ask the question, what 
exactly is it we are going to be doing, where the United States 
will simply disagree with us fundamentally; and where is the 
capacity for us to do that in the sense that somehow we will 
replicate or change direction and have the capacity to develop 
or deploy forces in the same way that the U.S.A. might do.
    There are some people across Europe who believe in a 
counterbalance principle to the U.S.A., and that somehow Europe 
should act as a counterbalance against some of what they might 
consider to be some of the more extreme gestures or policy 
positions of the U.S. I don't follow that, but this allows that 
process to develop, I believe.
    Mr. Cooksey. One of you mentioned the anti-American 
sentiment in the EU, and we are accustomed to that, and I 
probably agree with it at times, because sometimes we do send a 
mixed message about what our foreign policy is.
    What are the sources of that within the EU, the major 
sources? What countries specifically are those anti-American 
sentiments coming from? I assume that it is not Germany or 
Great Britain.
    Mr. Duncan Smith. I don't want to comment on individuals, 
but I did raise the point--and I am interested to hear what Mr. 
Brok has to say about this--the comments Mr. Rubin made in the 
last 24 hours about the Chirac speech concerning ballistic 
missile defense.
    There has always been an element of that around. It exists 
probably in almost every nation in Europe, some stronger than 
others. Sometimes it makes its way into policy statements, more 
often than not, but it is always a developing undercurrent 
which has to be kept in check as compromises are made on 
policy.
    But the concern that I am talking about, is that this 
process allows that to flourish rather than keep it under tight 
control.
    Mr. Cooksey. We expect a certain amount of that.
    I am from Louisiana, and Louisiana has ties to France, and 
I was over there a month ago, and I always enjoy my time in 
France. But in Louisiana we still have a few little Napoleons, 
and I think there are still probably some in France, too. That 
may be the source of the problem.
    Thank you, Mr. Chairman.
    Chairman Gilman. [Presiding.] Thank you, Dr. Cooksey.
    Mr. Brok. Is it possible to answer the question from my 
side, or are you not interested in this?
    Mr. Cooksey. Yes, but I ran out of time.
    Mr. Brok. First of all, we do this European policy because 
the present situation is not satisfying. Everyone agrees on 
this because Europe does not play the role it should play; 
therefore, we want to make changes, changes in order to play a 
better role, in order to get more burden-sharing in our common 
transatlantic interest.
    I think this is a new dimension in order to achieve this 
goal, in order to make available the transatlantic relationship 
on the basis of a partnership, and not on dividing the 
transatlantic relationship.
    I can remember that, in the discussion about setting up the 
Euro-Corps in the beginning of the 1990's, it was said that 
this would bring the German troops out of NATO. We said no, it 
would bring France closer to NATO. This is true. The whole 
European Union and other countries of Europe become closer to 
the United States with such a European defense identity.
    Last, I would like to mention anti-American statements you 
can get everywhere, as you can get isolationist statements 
everywhere in the United States. Nevertheless, I think that 
European governments, or the overall majority, and all national 
parliaments and the European Parliament are in favor of the 
transatlantic relationship; and certain examples cannot be 
misused for other purposes, and even I would like to talk about 
France.
    We always know that France has a special attitude, but I 
don't remember a time since 1945 when this made real problems, 
France was always on the side of the United States. It was like 
this in the Cuban crisis. It was like this in the Gulf crisis. 
France was on the spot despite certain statements. Therefore, I 
would not see any danger that this European defense initiative 
would be misused against a transatlantic relationship in NATO.
    Mr. Cooksey. Good. Those are very good comments, and I am 
glad to hear that.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    With respect to the countries we are discussing this 
morning, how strong is the consensus and the judgment of each 
of you as to the nature of the security risk that we face 
individually and collectively in the years to come?
    Mr. Brok. I would say that this position is not quite clear 
everywhere. Too many people still believe that with the changes 
of 1990, the whole world became more peaceful, and it is not 
understood that it becomes more dangerous.
    For example, we face a certain development in the 
Mediterranean and in Northern Africa: there is more military 
threat than we have faced in the time of the Cold War, perhaps. 
To foresee the question of proliferation and other problems, I 
think we increasingly need to stick together in NATO because of 
such military risks, to have our instruments against it. But 
that would mean that NATO has to be changed, and NATO has 
already changed and adapted to this, and the United States has 
adapted to this, but not Europe. Our development for a defense 
identity is in order to enable Europe to adapt to the new 
situation and give our proper share to the Atlantic Alliance.
    Mr. Duncan Smith. I agree with the assessment of what faces 
us, and I think across Europe the nations have actually been 
more content to assume peaceful outcomes than I suspect that 
they have a right to. Interestingly enough, your question does 
unite us in our observation of what the threat is. The question 
is, how do you deal with it, and what should we be doing?
    My concern is if you look at what the budget positions are 
across the nations of Europe, you actually see a very serious 
determination to reduce the budgets, reduce the defense 
spending, some of that driven by concerns over budgets that 
Euro has brought in sharp focus, that is true. The reality is 
that some of the budget constraints--for many reasonable 
reasons--that they would have to change some of their social 
and welfare spending, and perhaps that is too difficult; 
defense does tend to bear the brunt of that spending reduction 
because it is an easy target, because there is no general view 
that there is a threat.
    I believe there is a very serious threat emerging, and I 
would like to see that dealt with as each nation recognizes as 
part of NATO that it has some obligations to have a viable 
defense capability and to work with the United States, as well 
as other partners, in developing their defenses in such a way 
that they meet that threat. That is, in essence, the difference 
in how we approach it. I don't believe that the ESDI actually 
does that. I think it panders to a reductionist tendency, 
rather than to a tendency of improving defense.
    Mr. Davis. As we discuss the value of a collective force, 
what lessons do you think we have learned from Kosovo that 
should lead us to acknowledge the limited value of trying to 
operate on a consensus or most-common-denominator basis?
    Mr. Brok. What we have learned from Kosovo and from the 
whole Yugoslavia conflict is that with proper European 
capacities, we could have avoided war in the very beginning and 
the loss of many, many lives in this region before the shooting 
started in the beginning of the 1990's. I think this is our 
main concern, to get capacities to prevent such wars. We can 
only prevent them if we have enough military capacity to show 
that we can also use military instruments.
    I think, therefore, if Europe would have had the capacity, 
it would have meant less work for us and you, because we could 
have solved the issues together with you.
    Mr. Davis. It appeared that certain countries had greater 
difficulty discussing the possibility of ground troops in 
Kosovo, which ultimately succeeded in stifling public debate 
regarding the use of ground troops. Obviously, that is 
illustrative of one of the prices you pay in trying to govern 
military decisions on a collective basis.
    Mr. Duncan Smith. In answer to the two questions that you 
really put together, you have to go back to the start of this, 
which is the original change of Slovenia breaking away and 
recognition of Croatia. There was a misreading of what was 
taking place out there. I think it teaches us lessons in 
understanding just how powerful some historic animosities are 
and what the real pressures are ethnically. We have tended over 
the last 20 years to assume that those tensions were no longer 
in existence in Europe; and I have to say this has shown that 
if we worry about the Middle East and other countries, we have 
to worry about ourselves here, as well, that we don't pander to 
those splits and tensions.
    But having said that, recognizing how to deal with it is 
dealing with it early on, and to arrive at conclusions that all 
come together within the NATO framework, both the U.S.A. and 
the nations of Europe. But it does give us a very strong signal 
about what is likely to be the case in other parts of the world 
on how powerful some of those tensions will be. Given when we 
now talk about the likelihood of many of those nations being 
capable in terms of the ballistic missile threat and weapons of 
mass destruction, it does make it quite important that we 
recognize NATO as the one, clearly to deal with some of those 
threats, both directly to our Nations and to our interests 
abroad.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Hyde.
    Mr. Hyde. I have no questions, Mr. Chairman. Thank you.
    Chairman Gilman. Thank you, Mr. Hyde.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Gentlemen, I apologize for being late. I would like to have 
been here.
    Elmar, you and I have known each other for a long time, and 
you have been a leading spokesperson on foreign defense.
    Mr. Duncan Smith has written some things which I find very 
interesting, relating to ESDI within the European Union and his 
concerns about it, particularly as it relates to missile 
defense. I find them to be troublingly compelling.
    I am concerned, very frankly, about placing the European 
pillar, or the ESDI, within the European Union despite all of 
my prior contacts with the European Union and the parliament. 
My concerns are as follows: we have the problem of membership; 
Norway, Turkey, and the three newest members of NATO are not 
members of the EU. In fact, Turkey has had the door slammed in 
its face, and there is no prospect in the short term of its 
becoming a member.
    You have neutrals that are not a part of NATO that will 
play an increasingly large role in the European Union. Some 
people see the St. Malo meeting and then the Cologne summit as 
being the elements that put in place this ESDI concept within 
the EU; and rather than causing the British to spend more on 
defense, it may be the unstated view that Prime Minister Blair 
would be able to spend less on defense in Britain with that 
initiative.
    Finally, to name another high point of many concerns, the 
concern that this is another effort on the part of France to 
marginalize the influence of the United States.
    We have supported a European pillar, a strong one, within 
NATO to use those joint resources with the concept of a joint 
task force. But the European Union troubles us a great deal for 
some of the reasons that I have mentioned. I would appreciate 
anything that you can say, in brief, to try to ease those 
concerns.
    Mr. Brok. Thank you. First of all, the main point is that 
we want to answer a question which was posed to us by President 
Kennedy and Secretary of State Kissinger, to give the United 
States a telephone number which is to be called. ESDI is to 
deliver such a telephone number. I believe that it will make it 
much easier to do things together.
    The European defense initiative has nothing to do with 
keeping Turkey or Norway out. We know that Turkey will get the 
status of candidate for membership in the European Union in 
Helsinki, and that we will develop a system of flexibility, a 
close relationship to Norway, Turkey, and other NATO countries, 
so that they will be involved in that mechanism as the WEU is 
already involved in certain European policies.
    The neutrals cannot stop it because the Treaty of St. Malo 
has foreseen a decisionmaking procedure in a way that a neutral 
country cannot veto such questions. Therefore, I think it will 
bring those neutrals closer to our common purpose in an 
indirect way and will strengthen this partnership between the 
United States and Europe as we discuss, for example, Article V 
of the WEU treaty.
    I also believe this European pillar of the Alliance has the 
possibility of synergy effects in budgets. If we use our 
synergy effect, the budget can be used in the proper way. But 
that does not mean we will not increase the budget.
    Also, I believe that, for example, via the European budget, 
crisis management like in Kosovo can be paid for collectively, 
which means that even countries who do not play an active role 
have to take their share in the financing of such crisis 
management. Therefore, we will have more money for our common 
purposes than less.
    Mr. Duncan Smith. May I make two small comments?
    First, is that I noticed quite recently that Mr. Kissinger 
has explained those comments by saying he doesn't, I think, 
believe that will necessarily bring any solution to the 
problems that NATO faces.
    The second thing is, sometimes if you have one telephone 
number, which has a lower common denominator, what you may get 
when you ring that number is that they are not available; and 
that is what would worry me.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Delahunt.
    Mr. Delahunt. Mr. Brok, this is a followup to the initial 
question that Mr. Gejdenson posed to you when you referred to 
prevention and the existence of an ESDI which would have made a 
difference in terms of what occurred in the Balkans.
    Are you suggesting that simply the threat of an effective 
military force would have made a difference, or do you see it 
in terms of exerting influences based upon commercial 
relationships or diplomacy? Can you just amplify on that?
    Mr. Brok. I think that just economic policy and trade 
policy cannot avoid war in certain circumstances. It is a very 
important instrument, and the European Union is using this; and 
I think it is very important that the European Union has 
already been granted competence by their member states in this 
case. But there is something more.
    In the Bosnia crisis Slobodan Milosevic negotiated around 
34 cease-fires. None of the cease-fires really worked because 
Milosevic knew that the Europeans had no military capacities in 
order to uphold the cease-fires. It worked only when the United 
States of America got involved, and then it became possible. 
Therefore, I think to have our own military capacity would help 
us in a much earlier stage than such cease-fires in finding a 
political solution.
    Mr. Delahunt. So you are suggesting that an effective 
military deterrent based upon a European concept would have 
effected an earlier resolution in the Balkans, maybe would have 
prevented them?
    Mr. Brok. Nobody knows, but I think there would have been a 
very good chance.
    Mr. Delahunt. That is your hypothesis?
    Mr. Brok. Nobody knows. But from the very beginning we had 
no chance against Slobodan Milosevic because we had no 
capacities. I think we want to develop our chance, so that not 
all of the time the U.S. has to get involved and solve our 
problems in Europe.
    Mr. Delahunt. I find your testimony, both from you and from 
Mr. Duncan Smith, fascinating--and NATO. In terms of the new 
reality of NATO, particularly the debate, I think, has been 
provoked by Kosovo.
    I think it was you, Mr. Duncan-Smith, who talked about the 
mission, or maybe I am interpreting your words, that the 
mission of NATO in the past has been a collective defense 
posture, and now you use the words such as ``defending Western 
values'' which is clearly more nebulous than defending Western 
Europe and American national interests in terms of the Soviet 
Union.
    Is part of this debate, what we are talking about now, 
provoked by a lack of clarity in terms of what the new mission 
of NATO ought to be?
    Mr. Duncan Smith. What I said wasn't values; I used it very 
much as add on, as a purpose. I said that we have got to 
recognize what those values are. They are about democratic 
governments, liberal democratic governments.
    Mr. Delahunt. I think you were incorporating a question 
posed by Mr. Gilman or Mr. Gejdenson. In Kosovo the situation 
was a humanitarian premise, and I think you incorporated that 
or encapsulated that into your Western values.
    Mr. Duncan Smith. If you just have a woolly description of 
humanitarian support, you don't have a clear idea what is going 
to happen or who is going to do it. I think that is the 
important purpose for NATO, just to decide where its relevant 
spheres of influence are, and I think to that extent that 
process is a developing process.
    Mr. Delahunt. Again, the point that I am trying to make is 
that this debate, which is one that is very worthwhile to 
engage in, is in my own sense, really now a lack of clarity and 
an unease about the rationale and the mission of NATO in the 
aftermath of a bipolar world.
    Mr. Duncan Smith. I agree, but I also say, if we really 
step back and examine what the threats are, what is likely to 
emerge and what is emerging--something that both of us have 
touched on--I think they in many senses help define what NATO 
is all about as well. If you perceive there to be no threat, 
you really do have a problem with deciding what NATO is for.
    I am saying that there are regional threats to our 
interests, legitimate trade interests as well as interests with 
countries who share our values in those areas we consider to be 
partners.
    Mr. Delahunt. I think we can agree to that.
    Mr. Duncan Smith. And ballistic missiles adds to that as a 
direct threat to the nations themselves, the homelands of 
Europe and the United States. That threat is developing. I hope 
and believe that the nations of Europe have got to wake up to 
that very quickly.
    Mr. Delahunt. I wonder if you can define what threats will 
predicate a NATO response? Again, I think we are struggling to 
get to this clarity issue, and I think that is one point from 
which to have the debate about definition for NATO.
    Mr. Duncan Smith. I agree. The first one that is clearest--
and this is the best focus--is ballistic missiles, weapons of 
mass destruction, which I think are emerging very fast. That, 
if nothing else, I believe is and should be a NATO-driven 
policy.
    Mr. Delahunt. When I see in terms of ESDI--and this is just 
from a distance, and someone who is not necessarily conversant 
with the nuances of the issue--here we see a Europe with a 
common currency. There is a European Parliament and obviously a 
trading block, and now the beginning--and I guess this goes to 
your point, Mr. Duncan Smith--in terms of a common defense 
predicated within that political structure. There is a real 
trend there.
    Mr. Duncan Smith. You ask the critical question, which is, 
what is the end destination for this European trend; and those 
of us in my particular case, many of us believe that a state 
called Europe is not a good option and not a viable option. We 
would say that has limits, and I think we have reached the 
limits.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Brok.
    Mr. Brok. I would like to make a short remark on this.
    The European Union is not a state, but it has a political 
purpose. The European Union acts like a state, and it is not 
just about trade. That is the classical British conservative 
misunderstanding. It is not a trade association; it is a common 
market with a common environmental policy, with a common legal 
order like a state; it has a common currency. I think that it 
is very clear that, in the long term, we cannot have such an 
entity where regions have different quality of security. But 
this entity has the interest you are talking about.
    We have a common interest because we have a legal order, a 
common market and a common currency. Our own social 
environmental policy is much more than trade, and because of 
this----
    Mr. Duncan Smith. It sounds like a state.
    Mr. Brok. Yes, the European interest must be combined with 
the interests of the United States of America. Therefore, the 
vast majority of the European Parliament and the member 
countries of the European Union are looking forward to the 
development of a transatlantic marketplace. We have to combine 
our interests in more areas than just defense, because that 
goes deeper and will keep us longer together than just the 
defense question. Therefore, discussions about a transatlantic 
marketplace are of very high importance for the subsequent 
development of NATO in order to keep the public opinion that we 
have a collective interest; and therefore, collective defense 
and collective security policy makes sense.
    Chairman Gilman. Mr. Hyde.
    Mr. Hyde. Thank you very much, Mr. Chairman. I didn't 
intend to ask questions, but the more I think about what I have 
heard and the subject matter, the more I have questions.
    First of all, I am a big supporter of NATO and I am a big 
supporter of the European Union and all of that, but I can't 
help wonder--and I would be most interested in your responses, 
both of you--how relevant is NATO to the real present threat to 
the West which is in the Far East? It is China, it is India, 
Pakistan, it is Iran. It's Libya, it is North Korea, and the 
real danger spots are over there where nuclear proliferation is 
occurring.
    Iraq--God knows what is going on in Iraq; we don't.
    I am just wondering, here we have this marvelous working 
structure to protect us from the Soviet Union--and 
parenthetically, I don't write that off; the Soviet Union is 
very much a work in progress, but the real threats right now 
for a major confrontation are out of the area of NATO.
    I just wonder what your comments are vis-a-vis the 
relevance of NATO to the threat from the Far East--from India, 
Pakistan, and North Korea? Thank you.
    Mr. Brok. The United States is the only superpower left in 
the world, and it has a global point of view. Most Europeans 
are only able to look in our neighborhoods. That is one of the 
problems. But even if you look in our neighborhoods, we have a 
lot of common interests.
    You explain the situation in Russia, for example. You 
mentioned the Mediterranean. There are a lot of interests which 
we share and on which we have to work together. But I also 
believe that an emerging European Union would be better able to 
have a more outward look to other parts of the world in order 
to have a real burden-sharing with you.
    I think the question, for example, of proliferation is a 
global question. It is a question of common interest. Until 
now, the division of Europe, the political division of Europe, 
the political method of the lowest common denominator of 
political directors from foreign offices made Europe unable to 
consider real strategy and policy on these questions. I believe 
that we must be able to develop our policy in such a way that 
we, for example, can come together with you on questions like 
proliferation, the possibilities of preventive strokes, and so 
on.
    I have not given up the hope that we can keep proliferation 
in certain corners and that we have justice stand up for such 
defense systems. I think we still should fight for a world 
where proliferation has no chance politically, by accepting 
treaties, but also by being ready to do our job in a certain 
way of crisis management.
    Mr. Duncan Smith. I think NATO is hugely relevant in the 
sense of the threats that you are talking about. We are talking 
about proliferation, and you have got threats from the Middle 
East. I made a speech recently, I called it the Iron Chain of 
Proliferation; it stretches from the Far East to the Middle 
East. Clearly, in the U.S. you look to the Far East and you see 
North Korea and others posing a possible threat to mainland 
United States, as well as to your interests and possibly to 
already deployed troops. My answer is simply that NATO is the 
only organization that could be effective against that because 
the threat is, by its very nature, global.
    I agree with the assessment of the Soviet Union. My concern 
comes back to the simple point, for too long in Europe they 
have considered NATO to be about the defense of Western Europe; 
and that is really where we need to push, from being an inward-
looking process to an outward-looking process. My concern about 
ESDI is that it actually panders to an inward, isolationist 
view of Europe regarding its involvement and its obligations, 
both within NATO and generally in the global trade.
    My concern is, that is happening at the moment: There is 
being an internal focus, and more is less here. Because I keep 
coming back to the simple fact, talk is cheap.
    But if you look at the budgets, you actually see what they 
mean, which is that they don't intend to be able to project 
power. The one nation which has historically believed in power 
projection alongside the U.S. has been the U.K. it still has 
that enshrined in its strategic defense review. To do that 
requires equipment and it requires political commitment. I 
sense that, perhaps is not there, and I think that is my 
concern, that too often when people talk about the development 
of Europe, they refuse to say that the end result is a European 
nation. My answer is, if that is the case, then it would be an 
inward-looking one that actually takes it away from global 
responsibility. That is the wrong turn.
    Mr. Brok. You, Mr. Duncan Smith, and I agree that the 
present European performance is not good. Mr. Duncan Smith 
wants to continue the present method which has brought us to 
such a situation. The supporters of European defense identity 
want to use new methods and ideas to make it better for the 
transatlantic relationship.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. I just may ask the 
gentleman, Mr. Duncan Smith, when you mentioned ``Western 
values,'' could you explain what that is?
    Mr. Duncan Smith. Yes. I referred to them as a backup to 
what I was talking about in terms of NATO, what NATO is about, 
and I simply define them in the document that you have got as 
being those of liberal democracies who believe in free trade 
under the rule of law and the law of property; and those are 
the main principles, it strikes me, that Western Europe clearly 
and the United States, North America, and many others around 
the world would consider themselves to be about.
    They are the key elements that stop people from going to 
war with each other. We find that where those are enshrined 
with decent democratic institutions----
    Mr. Payne. And social justice?
    Mr. Duncan Smith. Yes.
    Mr. Payne. Would South Korea be a part of Western values or 
the Philippines, India? The oldest democracy in Asia is India. 
Would you consider them a part of your notion of Western 
values?
    Mr. Duncan Smith. Is that addressed to me?
    Mr. Payne. Yes.
    Mr. Duncan Smith. I think that all those nations that 
strive to emulate those values are actually working toward what 
I loosely call ``Western values.'' I am simply talking about 
the values that started in the West. But they are what I sense, 
at the end of the day, are the most powerful structures.
    But all I am saying is that they are an observation. What 
NATO has protected over the last 30 or 40 years is the 
existence of those from a totalitarian regime whose desire was 
to overtake all of that and get rid of it.
    Mr. Payne. I think that when we are looking for allies, and 
we are looking, as you mentioned, to people to have democratic 
values, I think when we put in a superficial kind of a barrier, 
saying ``Western values'' would almost mean that it then 
excludes values of people that are not in the West, even though 
they may not have the connotation of what you see as Western 
values.
    Mr. Duncan Smith. It is not meant like that.
    Mr. Payne. Let me ask you, where do you find Russia in the 
new Europe, with glasnost and perestroika--and 10 years ago the 
world witnessed the fall of the Berlin Wall.
    The U.S., in the early part, was very generous about loans 
and aid. Then NATO expansion started, and Russia felt that NATO 
expansion was, in essence, a way to contain Russia. Don't get 
me wrong, I just would like to know what Europeans' view of 
Russia in the future is, and I am still working with the 
majority here to try to figure out what our position with 
Russia is going to be, friend or foe, in the future. How do you 
see Europe's position in the new Russia?
    Mr. Brok. I think Russia is a country in transition. To 
answer your first question, it is always a question between 
values and interest. The bigger a country is, the more 
interests play a role which may be, from the point of morality 
a wrong position, but that is a classical question between the 
two issues.
    I believe that we really have to help Russia to develop 
toward democracy. It is not a full democracy now; and this is 
also in our common interests--it is in our own interests in 
terms of security and defense. Therefore, the European Union 
has set up major programs in order to help Russia to set up 
better administrations to get democracy more deeply rooted, and 
to help on the economic side in order to support Russia's 
transition toward a democracy and our common interests.
    Mr. Duncan Smith. Going back to Western values, I don't 
want you to assume that I am using that as an absolute. Of 
course, governments have to deal with different variables and 
different types of expression of that. But also there are times 
when some would pervert those processes and create instability 
in those regions and, therefore, nations of Europe have to 
decide how they might deal with changes to those. Examples are 
Pakistan and Chile. I am not saying that they are absolutes; 
far from it. I recognize that politics is not about that. I am 
saying that those are the things that people strive for. I am 
not saying to use it as an absolute.
    Mr. Payne. Thank you very much.
    Chairman Gilman. Thank you very much. Dr. Cooksey.
    Mr. Cooksey. Mr. Brok, I will ask you this, not only in 
your capacity as the Chairman of the Foreign Affairs, Human 
Rights, Common Security and Defense Policy Committee of the 
European Parliament, but also in your experience as a private 
sector businessman, a role I highly regard.
    I have some concerns about the difficulty that you are 
going through in Germany. Do you feel, as you make this 
integration, over the next ten years that you will be able to 
keep Germany's same commitment to a common European foreign 
policy and a common defense and security policy that existed 
when you were just West Germany? Is it difficult to conform the 
East Germans to this concept?
    Mr. Brok. It was the position by the German Government in 
1990 that the membership in NATO was a condition for 
unification. Chancellor Kohl didn't accept any proposal for 
German unification without NATO membership. Major German 
parties in parliament, besides the former Communists, have this 
position nowadays. Even the Green Party has developed in such a 
way. So the German support in the German parliament for NATO 
membership as a unified Germany is nowadays stronger than it 
was ten years ago.
    Mr. Cooksey. That is good to hear. That is reassuring.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Dr. Cooksey.
    I want to thank our panelists for your patience and 
excellent testimony and for traveling to be with us. I would 
like to invite Mr. Brok and Mr. Duncan Smith to sit up here on 
the dais for the balance of the hearing.
    We will now proceed to panel number two. I would like to 
ask our next panelists to take their seats. We are on a roll 
call vote, but our vice chairman is on his way back and we will 
continue right through. I think I will ask you to speak in 
alphabetical order. Each of our experts has a deep 
understanding of Europe and its importance to the United 
States, but differing perspectives on how the United States 
ought to deal with a unifying Europe.
    The Honorable John Bolton has served the United States as 
Assistant Secretary of State in charge of the Bureau of 
International Organization Affairs in the Bush Administration. 
He was Assistant Attorney General in charge of the Civil 
Division during the Bush Administration. During the Reagan 
Administration, he was in charge of Legislative Affairs at 
Justice, and prior to that was Assistant Administrator and 
General Counsel of the Agency for International Development, 
and served in the White House counsel's office. He is currently 
Vice President at the American Enterprise Institute.
    The Honorable Robert Hunter is at the RAND Corporation. He 
served until recently as America's Ambassador to NATO. 
Ambassador Hunter was Vice President of the Center for 
Strategic and International Studies, was involved in the 
Clinton and Mondale campaigns, and was on the National Security 
Council staff in the Carter Administration. He has also worked 
on Capitol Hill, as well as in the Johnson White House.
    The Honorable Peter Rodman is Director of National Security 
Studies at The Nixon Center. He has served on the staff of the 
National Security Council in the Bush and Reagan 
Administrations and in policy planning in the State Department. 
He also was on the staff of the NSC during the Nixon 
Administration.
    Professor Simon Serfaty came to the United States in the 
1960, and is a graduate of Hunter College in New York. He has a 
Ph.D. from Johns Hopkins and was associated with that 
institution for many years before taking up his present 
position at Old Dominion University. He is also associated with 
the Center for Security and International Studies and runs, 
among other things, a highly regarded program to bring experts 
on European affairs to the Hill for talks with senior staff. He 
has written 15 books and monographs, including one entitled 
``Taking Europe Seriously.''
    Gentlemen, thank you again for being here. Let us begin in 
the order I introduced you. Your written statements will be 
entered into the record in full, and you should summarize them 
in your oral remarks. After we hear from the panel, we will 
turn to questions.
    Chairman Gilman. Mr. Bolton, why don't you start?

   STATEMENT OF JOHN BOLTON, SENIOR VICE PRESIDENT, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Bolton. Thank you, Mr. Chairman.
    I must say, speaking as a strong supporter of NATO, I think 
NATO is at a crisis point for its future. I think that the 
crisis is caused not, as some would say, by inward-looking or 
isolationist views of the United States, but by the conscious 
and not--very--hidden agenda of many European nations to 
develop a separate security and defense identity, one that 
would, at a minimum, distance themselves from the United States 
and, in the most disconcerting option, create them as an 
alternative.
    I think that a fully effective ESDI--and I think it is a 
long way from happening because of the split between rhetoric 
on some European leaders' part and the reality of their actual 
defense and political structures--but a real ESDI would result 
in the fragmentation of NATO and the collapse of the Atlantic 
Alliance as we know it. I think that the original idea 
underlying the Marshall Plan, whatever utility it has had and 
did have during the Cold War, is confronted with a very 
different set of circumstances today. The continued development 
of the European Union is not something that the United States 
should be----
    Chairman Gilman. Gentlemen, I am told that I have two 
minutes to vote. Mr. Bereuter is on his way back.
    The Committee stands in recess.
    [Recess.]
    Mr. Bereuter. [Presiding.] I understand that you were in 
mid-statement when I went to cover the vote. I am sorry that we 
are having to do this. Please proceed.
    Mr. Bolton. [Continuing.] What I was saying, is that it 
ignores reality not to think that a European Security and 
Defense Identity, if it came into being, would have a dramatic 
impact on the internal decisionmaking and effectiveness of 
NATO.
    I have tried in my testimony to give some examples of what 
has already happened in the playing out of a closer European 
Union in the economic area. When the G-7 now meet on trade 
questions, they meet as four: Japan, the United States, Canada, 
and the EU. It is hard to deny that that changes the dynamic, 
it changes the perspective of the European Union 
representative.
    In the context of the United Nations, which is a small 
example here, ten years ago when the Western group of nations 
met, although the Presidency of the EU might give an ``EU'' 
perspective, other EU members also spoke. The Brits would 
speak, the Italians would speak, the French would speak. Today 
in Western group meetings, the EU presidency speaks, and all of 
the rest remain silent.
    This difference in the political dynamic has already 
affected NATO. I think it will affect it more so in the future, 
and I think it is just inherent in the logic of a separate 
European identity that it will develop an agenda different from 
ours. If the Speaker of the House came to this Committee and 
said: ``I would like another International Relations Committee 
as an alternative to this one,'' one might well ask why that 
was necessary. It would be to pursue a separate agenda.
    I find that very troubling, and I think we have seen it 
play out, for example, in the context of the breakup of 
Yugoslavia. Even within the EU, the differences that were 
debated produced a policy that led to incoherence. The German 
push to recognize Slovenia and Croatia, I think helped 
precipitate the disintegration of Yugoslavia and everything 
that flowed from it.
    I think we have seen that despite the State Department's 
conventional wisdom--that the European Union sometimes favors 
the United States, sometimes works to its disadvantage, but on 
balance it is useful--has been proven conclusively wrong time 
and time again in the context of Middle East policy where the 
European Union's lowest-common-denominator position has been 
nothing but trouble.
    I think the same is true for the European Union in the 
context of European Monetary Union, where the purpose of a 
single European currency is precisely to be an alternative to 
the dollar. I think Mr. Brok said just about as clearly as one 
can say in the third paragraph of his statement, ``The European 
Union is a state under construction,'' which implies it will, 
when it finishes construction--if it does--be a direct 
alternative and perhaps opponent in some instances of the 
United States.
    I think we have seen that play out most recently in the 
case of Kosovo where, on a number of issues, there was just a 
fundamental disagreement between the European Union vision of 
what to do and the American vision, first, on the question of 
whether to seek Security Council approval, where the European 
view clearly was to seek it and ours was not. Second, as we 
have seen in recent testimony on the Senate side on internal 
NATO decisions on targets and other military matters, that 
there is just a different way that the Europeans viewed what 
they were after in Kosovo.
    It is not just the tactical decisions themselves, but the 
larger political agenda that it reflects. The unseemly and 
corrosive public debate over use of ground forces which the 
United States is, in part, to blame would be a further split 
within the Alliance that I worry about.
    So, Mr. Chairman, I think that we have come past the point 
where we can all say, ``We favor NATO, we favor the European 
Union; we favor greater European political cooperation and a 
common European Security and Defense Identity,'' and act as if 
those two are entirely consistent. I think the evidence is 
clear that they are not consistent with the continued vitality 
of NATO. I think that represents a real challenge for the 
United States.
    I believe NATO should be prepared to expand its activities 
out of area. I think that is something that is very much under 
threat. It is important that we stitch ties of economic 
cooperation more closely across the North Atlantic to help 
prevent that. That is not something that most European Union 
members have in mind.
    We are at a very troubling time for NATO and a very 
critical point in its future: whether we will see a second 50th 
anniversary.
    Mr. Bereuter. Mr. Bolton, thank you.
    [The prepared statement of Mr. Bolton appears in the 
appendix.]
    Mr. Bereuter. Ambassador Hunter, you may proceed.

   STATEMENT OF AMBASSADOR ROBERT E. HUNTER, RAND CORPORATION

    Mr. Hunter. Thank you. It is an honor to appear before you 
and the Committee today.
    Let me first compliment the Chairman and yourself for 
holding this hearing. I think it is very important that the 
American people understand exactly what our stakes are in 
international security and in Europe and the best way of going 
about it; and I also thank you personally and, through you, 
other Members of the Committee for the extraordinary bipartisan 
support that you provided the whole time while I was NATO 
Ambassador. We are able to be effective abroad and especially 
effective in NATO only when we have the strong support of the 
Congress. I understand that you will be leading a delegation to 
the NATO Parliamentary Assembly this weekend.
    Mr. Bereuter. We hope so.
    Mr. Hunter. I salute you on doing that.
    Let me cut to the bottom line.
    First, the Europeans are working to complete European 
integration. This has been a U.S. goal for more than 40 years, 
and the progress that they are making and the steps that they 
are taking are underscored by the fact that we have just 
reached the 10th anniversary of the opening of the Berlin Wall 
and the effort, as President Bush said, to create a Europe 
whole and free.
    Second, both CFSP and ESDI are very much a natural 
progression taking place over a long period of time. This is 
the last act of devolving sovereignty, giving up national 
control of your military forces, and that is not going to 
happen simply or easily.
    I welcome the major step taken to appoint Javier Solana to 
be, in the English phrase, ``Mr. CFSP.'' The EU's choosing a 
man with such distinguished service at NATO augers well for the 
Atlantic Alliance as well as for Europe.
    There are some doubts here about the way that this is 
going, but it is not going to happen suddenly. We have a long 
time to help the Europeans get it right.
    Third, let's be clear. Virtually every European country 
sees NATO as continuing to be preeminent. When push comes to 
shove, NATO is their bottom line in terms of where security 
gets done. They see the U.S. role as continuing to be 
absolutely critical, and I don't think any of them, including 
the French, are going to risk that engagement.
    Fourth, we should welcome, I believe, this development and 
be clear in our fundamental support before we get into the 
details, frankly, because there has been a lot of uncertainty 
in the past in Europe about whether we are really prepared to 
see them create a strong European pillar. ESDI is, in fact, a 
major element in getting the Europeans to take more 
responsibility, something we have long urged them to do, 
whether it happens through NATO on a particular occasion or 
ESDI on a particular occasion. This is going to help over time 
to encourage the Europeans to be more outward looking, rather 
than less.
    Very little of what we are talking about today is new. As 
you know, Mr. Chairman, back in 1996 NATO struck a basic 
bargain with the Europeans, from which I think everyone gains. 
I had the honor of negotiating this for the United States. The 
agreement was that, in order to ensure the primacy of NATO and 
to make sure that resources were not wasted, ESDI was to be 
built within NATO, not outside it, and with a doctrine that 
some assets could be separated from NATO, but they wouldn't be 
separate from it.
    The NATO chain of command is to be preserved. There is to 
be one NATO, not two; not one for what we call Article V 
operations and one for non-Article V. NATO primacy is 
underscored. This is the place, it is all agreed by all 19 
allies, for dealing with transatlantic security, and everyone 
recognizes that that does mean the preservation of U.S. 
leadership. Frankly, from our perspective, I think we have to 
recognize that continuing to be engaged buys us a lot of 
influence in Europe, far beyond defense issues.
    It has also been agreed that NATO has the first call on 
forces, including institutions like the EUROCORPS; and also, if 
NATO assets were transferred to ESDI, NATO could have them back 
any time it wants.
    On the European side of the bargain, there was agreement on 
certain kinds of NATO assets could be transferred to ESDI on 
agreement of the North Atlantic Council, where we have a veto. 
I could go through the list; it is extensive. The basic thing 
is, we struck this bargain. It has been negotiated and agreed, 
and this is something that I believe is very much in our 
interest.
    Now we have a new debate in the last several months, partly 
because of Kosovo--a recognition that there is need for better 
burden-sharing and for the Europeans to be able, if not yet 
willing, to do more in their own backyard. There is also a new 
European desire for a greater capacity for self-reliance, 
something that we have been urging on them for decades and 
should welcome. However, I believe, that most of the new 
impetus for ESDI is not Kosovo, but the decisions taken by the 
British and French governments last December at St. Malo. If 
you read the document agreed at that meeting, you will see that 
the only thing that is new, building on the Berlin decisions of 
1996, is to move the executive agent for ESDI from the Western 
European Union to the European Union, in time, followed up by 
the employment of Javier Solana in his new role. It is true 
that some, particularly in France, want to increase the degree 
of European military independence from NATO through ESDI, and 
perhaps even to complete with us. Let's be clear, this is 
decidedly a minority view, and I don't think that anyone is 
prepared to risk the transatlantic ties.
    We have on this side of the Atlantic expressed some 
concerns about ESDI in terms of the three D's: discrimination, 
decoupling and duplication.
    ``Discrimination'' really means Turkey. Yet it was agreed 
in 1996 that, if Turkey doesn't get to take part in what WEU 
does, it will not get any NATO assets--period. We can veto the 
decision, and we should do so. German Defense Minister Rudolph 
Scharping said last week that Germany stands fully with us on 
this matter.
    Next is ``decoupling.'' If we look fundamentally at the 
Transatlantic Alliance, we are engaged with the Europeans in 
NATO and they are engaged with us because our respective 
interests, if not identical, at least are fully compatible. 
Frankly, if they weren't, we would not have a NATO alliance, 
much less anything we are talking about today.
    My real concerns about decoupling are three: first, 
decoupling by accident. If because of a desire to build their 
institutions, what the Europeans say they are able to do 
militarily runs ahead of what they can actually do, we in the 
U.S. might think that we could do less before it is possible.
    Second, I do have a concern that the EU might create a 
``European Caucus'' within NATO, in which all ten WEU Members 
in NATO, today, and more later, would take the same positions 
and have to refer back to the European Council to change their 
views. I think that would be very dangerous for the effective 
working of NATO, and we have to oppose it.
    Third, if there is too much talk about CFSP too soon, it 
could indeed produce a lowest common denominator among the 
Europeans. One thing on which we have to work with the 
Europeans--and this is an absolute bottom line--is to get them 
to be more outward looking, whether through NATO or through 
``coalitions of the willing.''
    Regarding ``duplication,'' there will be some of that. The 
Europeans have to be able to make decisions and have some 
command and control. But none of the allies, including France, 
will spend the money to do excessive duplication. In fact, I am 
more worried that they will not spend money even to fulfill 
their NATO commitments; very worrying is the fact that Germany 
is planning to cut its defense spending by a substantial 
amount.
    Now, where do I think the real problem is today and what 
should we be focusing on right now, as opposed to later? That 
issue is about capabilities, not structures. Here, I believe 
the most important thing we have to get done within the 
Alliance right now is the so-called Defense Capabilities 
Initiative (DCI). Whether that helps NATO or helps ESDI or 
both, DCI is, I think, the critical factor. This was dramatized 
by Kosovo, where the United States flew about 80 percent of the 
sorties--in part, of course, because collectively the Alliance 
wanted to sustain as few casualties as possible. Let's be 
clear: if there had been a ground campaign, most of the 
fighting would have been done by Europeans. Thus Kosovo was not 
just a matter of our pulling European chestnuts out of the 
fire.
    The most immediate issue within DCI, which is still 
undersolved, is the role of the defense companies within Europe 
and across the Atlantic. We are now seeing something we have 
pushed for finally taking place within Europe: greater 
consolidation of European defense industries. The U.K. has 
taken the lead. We now see the potential creation of a European 
Aerospace and Defense Company with Germany, France, and Spain. 
The real question is whether that will be protectionist or 
outward-looking. Are we going to have transatlantic teaming and 
some common procurement, or will we see a ``fortress Europe?'' 
This is a central risk. Here is something on which we Americans 
have a lot to say, particularly because we have the bulk of the 
high technology that is needed to make NATO work in the future; 
and here I think we in the U.S. are falling short in three 
areas.
    First, we need to speed up the licensing process for high 
technology transfers so Europeans can start doing things with 
us. Second, we need to start thinking about buying effective 
defense goods from Europe if we want them to buy from us. 
Third, we have to face up to a critical issue about technology 
transfer to the Europeans--not just providing them with the 
``black boxes,'' but also with what is inside of them. The 
Europeans have to be willing at the same time, to protect our 
technology so it doesn't fall into the hands of other states, 
especially that are hostile to us.
    But I think we need a ``rule of reason'' here. Otherwise, 
if we find a ``fortress Europe'' and a ``fortress America'' in 
defense procurement, we will all lose. It is here, with the 
Defense Capabilities Initiative and this transatlantic defense 
industry relationship, that we really need to focus now.
    Thank you.
    Mr. Bereuter. Thank you, Ambassador.
    [The prepared statement of Mr. Hunter appears in the 
appendix.]
    Mr. Bereuter. Mr. Rodman, you may proceed as you wish.

   STATEMENT OF PETER RODMAN, DIRECTOR OF NATIONAL SECURITY 
                   PROGRAMS, THE NIXON CENTER

    Mr. Rodman. Thank you very much.
    First, I want to commend the Committee and the Chairman for 
the leadership that you have shown on this issue we are 
discussing. The Committee's engagement on the issue has been 
timely and important, and I believe it is having an effect on 
the unfolding debate across the Atlantic.
    Now, Americans have always wanted the Europeans to do more 
on defense. We have always wanted the Europeans to coordinate 
more, to improve the effectiveness of what they are doing in 
defense. Since the Balkan crisis in particular, Americans have 
welcomed the prospect that Europeans might be able to act 
autonomously.
    So it is important to stress that the debate here is not 
about America wanting to see Europe weak. It is not about 
America wanting to keep Europe divided. It is not about America 
wanting to keep Europe in a condition in which it is not 
capable of acting effectively on its own. On the contrary, the 
issue boils down to whether this European drive for autonomy 
strengthens the Alliance or divides it; whether the manner in 
which the Europeans go about this is going to compete with NATO 
or complicate NATO's procedures. That is the question.
    On one level it is a very mundane question. Maybe there is 
some procedural formula, some institutional formula, some way 
of linking the EU tightly to NATO in this field. Maybe 
ingenuity will come up with some way of doing this. But it is 
also a profound issue, because if it is not done the right way, 
what we have for the first time in 50 years is a competing 
defense organization, and that is a revolution in transatlantic 
relations.
    The European Union, of course, is now developing not only 
the Common Foreign and Security Policy, but St. Malo does imply 
a new defense institution of some kind. This is coming about 
because the British, who for years had resisted this, have now 
reversed direction, as Mr. Duncan-Smith was describing in the 
first panel. This is a new departure.
    The question inevitably arises, how does this new EU entity 
relate to NATO? How does it fit into NATO or link up to NATO? 
The disturbing answer is that we don't know yet. We don't know 
how this new defense entity is going to link up with NATO or 
coordinate with NATO or whatever.
    What we see, what we read is ambiguous. St. Malo was 
ambiguous about the Europeans wanting to have the option of 
acting ``inside or outside of NATO;'' and the French, of 
course, stress that St. Malo is about giving the EU a capacity 
outside of NATO. The Cologne EU Summit was disturbing to many 
people here because, again, the language seemed to suggest that 
the emphasis was on what is independent of NATO, not what is 
coordinated with NATO.
    President Chirac gave a speech at Strasbourg on October 
19th, where he spelled out the French view of an all-European 
chain of command, a procedure whereby Europe would have its own 
military committee, it would make decisions, convey the 
decisions to a European general staff, which would give orders 
to European forces--again, all of it outside of NATO.
    What is more disturbing to me is, in President Chirac's 
speech, he even ruled out the idea of discussing how this 
relates to NATO. He was vehement on the point. He said it is 
``premature.'' He said it is ``putting the cart before the 
horse,'' there is ``no need for it at the present time.'' 
Whereas, on the contrary, I believe the sooner we resolve this 
institutional question, the better.
    As I said, there may be a formula. It would certainly make 
use of the Berlin formula that Ambassador Hunter described 
whereby the Alliance has already set up a procedure for 
autonomous European action within the Alliance framework. But 
the French seem to be resisting the idea of discussing now how 
these institutions are going to relate. That is a mistake, and 
I think it is imperative--now, at this formative stage of 
European institution-building--to address this question and try 
to find some formula to reflect what Ambassador Hunter said, 
the primacy of the Alliance. Even President Chirac talks about 
the Alliance being the ``centerpiece of Europe security.'' I 
would like to see some operational reflection of that principle 
in the EU's deliberations.
    I have to say that the resolutions that were passed in the 
House and the Senate recently could not have been more timely. 
House Resolution 59, which was your initiative, Mr. Chairman, 
which passed overwhelmingly, and Senate Resolution 208, which 
passed unanimously on November 8th, both expressed the kinds of 
concerns that we have been expressing--the fear that this might 
evolve in a way that divides the Alliance.
    These resolutions were especially timely because the EU is 
about to meet again in Helsinki in mid-December. The EU will 
have one of its semiannual summits in Helsinki to carry this 
project to the next stage. It is important, as the Europeans 
meet again that they understand the American view. It is 
important that they not be misled by our silence into thinking 
that the trend has American acquiescence or American support or 
does not portend some serious consequences in European-American 
relations.
    The expression by Congress of this concern is enormously 
important, and I hope it will have an effect on how the 
Europeans go about their project.
    As Ambassador Hunter pointed out, the French view is not 
the unanimous view in Europe, and there are many in Europe who 
do pay attention to what we think, who do care about the 
American connection, and who might well share the concerns that 
we are all expressing.
    The last point I would stress is that, of course, the 
administration shares the same views. Deputy Secretary of State 
Strobe Talbott gave an important speech in London on October 7 
reiterating the Administration's concern about the evolution of 
the EU defense project. It is the Atlanticists in this country 
that are expressing these concerns, it is not the 
isolationists. I think the isolationists in this country would 
be happy to see Europe go its own way; they would wave good-bye 
and would not be unhappy to see NATO fall apart. But it is the 
Atlanticists, including the Members of Congress who have passed 
these resolutions, and it is the Atlanticists in this country 
who do value the Alliance, who are expressing these concerns. 
If the Europeans seem to think that the Alliance is 
dispensable, it is reasonable to fear that there might be a 
reaction here strengthening the hands of isolationists in this 
country.
    Again, I commend the Chairman and the entire Committee for 
the leadership it has shown on these issues. Thank you very 
much.
    Chairman Gilman. [Presiding.] Thank you, Mr. Rodman.
    [The prepared statement of Mr. Rodman appears in the 
appendix.]
    Chairman Gilman. Dr. Serfaty, please proceed.

   STATEMENT OF DR. SIMON SERFATY, PROFESSOR OF U.S. FOREIGN 
                POLICY, OLD DOMINION UNIVERSITY

    Mr. Serfaty. Thank you, Mr. Chairman, and thank you, too, 
for the opportunity to be here this morning. I have provided a 
prepared statement, and given the eloquence of my friends and 
colleagues on this panel, I will limit myself to a few short 
points.
    Chairman Gilman. Without objection, the full statement will 
be made a part of the record.
    Mr. Serfaty. First, the war in Kosovo, as well as the war 
in Bosnia and the Dayton Accords, were about the unfinished 
business of Europe, namely the need to attend to the pre-Cold 
War legacies of territorial and ethnic conflicts which the 
Europeans, left alone, cannot manage by themselves for lack of 
capabilities and institutional unity.
    That business is unlikely to go away for the indefinite 
future, and our commitment to the management of that business 
is unlikely to fade either.
    Second, that such would be the case is a matter of 
interest. Quite clearly, we have in Europe a range of 
interests, the likes of which are not matched anywhere else in 
the world. There is now between the United States and Europe a 
complete relationship that is not found anywhere else, to 
repeat, outside of the Western Hemisphere. These interests 
shape our commitments, and not the other way around. It is on 
that basis that we remain supportive of the European allies in 
the management of that unfinished business.
    Third, discussions in Europe about the need for common 
foreign policy and the desirability of a European security and 
defense identity are not new. In fact, these discussions have 
become so repetitive over the past 50 years as to become, 
frankly, boring. Yet these initiatives are more serious today 
than they have been at any time over the past 50 years. That 
this would be the case has to do with an unprecedented level of 
consensus amongst the European allies, including the big 
three--Germany, France, and the U.K..
    France has become more pro-Atlanticist over the past few 
years, while the U.K. government, as Mr. Duncan-Smith was 
suggesting this morning, has become more pro-European than at 
any point over the past many years.
    Fourth, a stronger, more coherent and more united Europe is 
a goal which the United States has been seeking for the past 50 
years. Any sort of ambivalence about the fulfillment of that 
goal would mark a dramatic change in what have been established 
U.S. policies since 1949.
    This being said, however, there are legitimate questions 
about the complications and the dilemmas and the ambiguities 
which the development of an ESDI or of a CFSP, might 
introduce--and there are many more D's than the three usually 
mentioned. I have counted at least five of them:
    A duplication of NATO resources and capabilities that would 
be wasteful;
    A decline of the EU states' commitment to NATO that would 
be self-defeating;
    A re-distribution of authority between well-established 
NATO mechanisms and a newly created EU bureaucracy of standing 
committees and competing military staffs that would be far too 
ambiguous;
    Some discrimination toward NATO states that do not belong 
to the EU, like Turkey, which would be troubling; and a 
dangerous back-door diversion of NATO security commitments to 
non-NATO states that do not belong to the EU.
    All of these concerns are real, and we should be aware of 
them. But they are premature at this point because this is no 
more, or no better, than the beginning of a process that is 
going to take a number of years before coming to its end point. 
Indeed it is incumbent upon us to influence the process even 
while it unfolds in order to prevent those outcomes which we 
fear or might fear.
    Fifth, in the context of that process, what the Europeans 
are most likely to do is not so much to spend more on defense 
as to stop spending less, and spend better. Only later might 
they spend more. I suspect that in the next few years, the 
Europeans will adopt criteria for defense convergence somewhat 
comparable to the criteria that were developed for their 
economic and monetary union.
    The first of those criteria will be defined in terms of 
comparable percentages of research and development and 
procurement spending, for example, and convergence in the 
professionalization of national armies or in the area of 
privatization of the defense sector. I suspect that these 
initiatives will be announced at the end of the French 
presidency in December 2000, with the year as a possible point 
of arrival.
    Sixth and finally, I must say a few words about enlargement 
because enlargement defines the ``C'' of CFSP and the scope of 
Europe's common foreign policy. Europe's commitment to 
enlargement to the East is certain and credible, but there 
should be a more reliable, more readily identifiable, more 
transparent time line as to its form and schedule.
    Our concern over enlargement should not be that the EU will 
renege on this commitment. Our concern has to do with the back-
door commitments might develop as the WEU becomes part of a 
larger EU. I would like to think that between the EU Summit of 
2000, December and the next NATO summit in the latter part of 
2001, we will begin to work toward a progressive convergence of 
European membership for both of those institutions. Over time, 
NATO states in Europe that do not belong to the EU should 
become members of the EU, and EU states that do not belong to 
NATO should become members of NATO. That guideline has been 
implemented since the 1949 Washington Treaty and the 1957 Rome 
treaties, and it ought to be the flashlight that will help us 
move toward a convergence of the two institutions that shape 
the Atlantic community.
    Mr. Chairman, the way to approach the debate on CFSP and 
ESDI and other related matters is with a vision statement that 
does nothing more than stay the course. We are coming to the 
end game of the process that started in 1949. U.S. policies 
toward Europe have been extraordinarily successful to the 
benefit of both sides on the Atlantic.
    Those policies were shaped by two fundamental ideas: the 
idea of a strong and united Europe on the one hand, and the 
idea of a cohesive and coherent NATO on the other. These ideas 
were never deemed to be contradictory or conflicting. They were 
always compatible and complementary. The way to approach the 
21st century is to keep that vision afloat and to stay the 
course.
    Chairman Gilman. Thank you, Dr. Serfaty.
    [The prepared statement of Mr. Serfaty appears in the 
appendix.]
    Chairman Gilman. Let me open up our questions with Mr. 
Bolton.
    You have identified some of the major pitfalls that face 
the transatlantic relationship as a process of an ever-closer 
union as realized by the EU. Do you believe that the policy of 
the U.S. should be to stop the development of Europe's common 
foreign and security policy of the ESDI entirely? If so, how 
can we accomplish that without risking a permanent rift in our 
relations with our allies?
    Mr. Bolton. I don't think that we can stop it, but I think 
what we should do very clearly is say to the Europeans, that 
number one we are not indifferent to what you are doing.
    Number two we do have legitimate interests in it. I think 
that the Europeans have operated certainly during the last six 
or seven years, and before that, on the assumption, because of 
repeated official statements, that we do simply welcome 
continued integration on political and military matters and 
that we don't have any concerns about it.
    I think, and I was sort of in mid-sentence when we broke; 
let me go back to that thought.
    It is certainly true, in the Marshall Plan, we welcomed 
closer European economic integration. It made good sense as 
economic policy for them, and it suited our purposes in 
dispensing Marshall Plan aid; but the circumstances of Europe 
in 1999 are very different from the circumstances of Europe in 
1949. Accordingly our interests have changed as well. Although 
I don't usually quote John Maynard Keynes, somebody once said 
to him, ``Well, you have changed your opinion. You have changed 
your policy.'' and he said, ``Sir, when the facts change, I do 
change my opinion. What do you do?''.
    I think that the real threat now comes from a European 
identity that sees itself, defines itself, in large measure as 
something different than the United States. This is playing out 
in a number of respects. I think it has consistently played 
itself out that way in the former Yugoslavia and in dealings 
with states like Iran and Iraq. The most current example is the 
subject of missile defense, and there had been reference here 
earlier today to President Chirac's speech last week where the 
idea that somehow the development of missile defense is--U.S. 
development of missile defense--is a threat to the Europeans of 
separating ourselves out. This is not only wrong factually, but 
shows the hidden agenda not just of the French, but of many 
others beyond France who won't say it publicly in a hearing 
like this, but say it privately very effectively. That is why 
the French and others in Europe don't refer to us as the 
world's sole superpower, they refer to us as 
``hyperpuissance,'' or ``hyperpower,'' and they don't mean it 
as a compliment. Think of ``hyperthyroid.'' That is what they 
are worried about the United States, and that is driving a 
wedge between us and Europe.
    Chairman Gilman. Thank you, Mr. Bolton.
    Mr. Hunter and Dr. Serfaty, let me address a similar 
question to you. You call for continued U.S. Involvement in 
European integration. Accepting for the moment that it is in 
our national interest to continue that involvement, what are 
the most important things that our Nation can do that it is not 
doing now in that regard? We also note that Britain, France and 
Germany want to avoid a U.S. veto on the use of NATO assets for 
strictly European operations. I would ask you both if you can 
comment on that.
    Mr. Hunter. First, Mr. Chairman, I think we should not 
overreact to some things that we are hearing, particularly 
statements out of France. When it comes to the bottom line, the 
French are with us whenever we need them to act.
    However, when we get to a point where there is less of a 
challenge, overall, and the French have a chance to act in 
terms of their own political opportunity within Europe, they 
take that opportunity.
    But it is also true that other states in Europe don't agree 
with the French view. Whether in public or private, I hear 
something very different from what Mr. Bolton is saying. The 
Europeans very much stand with us.
    As I indicated in my testimony, Mr. Chairman, in terms of 
what we do right now, it is most important to continue pressing 
for the Defense Capabilities Initiative, to get Europeans to do 
things so that, either through NATO or ESDI, they can work 
effectively with us. In that context, we have to be very 
careful that we don't get a ``fortress Europe'' and a 
``fortress America'' in terms of defense companies. There are 
steps that we need to take to make sure that U.S. technology 
and U.S. weapons get into the hands of Europeans where they can 
actually work with us.
    Chairman Gilman. Dr. Serfaty, would you care to comment on 
that?
    Mr. Serfaty. There is very little I can add to what 
Ambassador Hunter just said. We tend to hear different views of 
selective speeches as they are being made by President Chirac 
and others. The French president has said many things over the 
past months.
    Two short points, though. John Bolton said our interests 
have changed since 1949. Of course, they have changed, but they 
have changed in the direction of being genuinely overwhelming. 
The range of economic, political, military security, and 
cultural interests that did not exist in the late 1940's now 
make disengagement no longer meaningful, let alone possible.
    You can argue that those interests have become so 
significant as to not be possible to leave them up to others to 
protect, but I happen to think that the Europeans can be 
helpful in that context, and that we can work them out in such 
a way that those interests are protected by contributions from 
both sides.
    As to what to do, I would rather have suggested what not to 
do. I think that U.S. statements that tend to question such 
European initiatives are often used by European states as 
alibis for not doing what they did not want to do in any case.
    Chairman Gilman. Mr. Rodman, you point out that there is a 
gap between European rhetoric on an independent defense 
capability and the reality of their actual capabilities in an 
environment of sharp cuts in defense spending on the continent. 
You also pointed out the experience in Kosovo, which made this 
gap glaringly clear, has fueled the debate in Europe and driven 
it in a direction of putting the Alliance unity in possible 
jeopardy.
    Do you believe that our Nation should put a higher priority 
on assisting Europe to address that ongoing gap between U.S. 
technology and Europe's defense capabilities and, in effect, 
treat the European debate on CFSP and ESDI as a manifestation 
of some kind of an inferiority complex?
    Mr. Rodman. We do have an interest in helping the Europeans 
expand their capability, partly for burden-sharing reasons and 
partly for the health of the Alliance. A relationship of 
dependency is very unhealthy and corrupting. So I take no 
comfort in European weakness.
    The fact that this CFSP or this St. Malo initiative may 
fall on its face does not give me pleasure, because we may end 
up with the worst of all worlds: we may end with a Europe that 
still does not have the capability to do very much, and yet 
they will have created an institution which complicates NATO's 
unity.
    We need to persuade the Europeans that we are not trying to 
keep them weak, we are not trying to keep them divided. This is 
not a divide-and-rule strategy for American dominance. I agree 
with what Ambassador Hunter said. We need to look at the issue 
of defense industries and see if barriers on our side are 
impeding proper business mergers or tech transfer that would 
help the Europeans improve their effectiveness.
    We need to do that. But my bottom line is that I think that 
the unity of the Alliance is the formula for Western unity, and 
I don't want to see them complicate that.
    Chairman Gilman. Thank you, Mr. Rodman.
    I regret that I am going to have to go to a Policy 
Committee. I am going to ask Mr. Bereuter if he would conclude 
the remainder of the questioning.
    I want to thank our witnesses and also Karen Donfried and 
Paul Gallis of the Congressional Research Service, who helped 
our staff prepare for this hearing. Thank you very much.
    Mr. Bereuter.
    Mr. Bereuter. [Presiding.] I recognize the gentleman from 
Louisiana, Dr. Cooksey.
    Mr. Cooksey. I will try to review some of your testimony 
that I missed.
    I want to paint a scenario and I want someone to disagree 
with me and prove me wrong.
    Mr. Bereuter. Dr. Cooksey, excuse me. I have a recorded 
vote in Banking so if you will take the Chair while you are 
doing your questions.
    Mr. Cooksey. [Presiding.] ESDI becomes larger, and as it 
becomes large, NATO becomes smaller. Rogue nations, rogue 
missiles, and there are no leaders in Europe; and quite 
frankly, I don't think that there are any great leaders 
anywhere in the world right now. I am not impressed with many 
people. There are a lot of people that have these titles who 
are very effective in the medium of the day, which is 
television. They are very good television communicators.
    Let's say that the rogue missiles from the rogue nations 
start falling on Europe. Is there a leader out there in Europe 
who has the courage to maintain a strong transatlantic 
relationship, who has the courage to tell his people that they 
have got to commit to maintaining a strong military, so that 
they can either intimidate these rogue nations into behaving or 
respond in a very forceful manner when it does occur?
    Mr. Hunter. Can I try that?
    Mr. Cooksey. Sure.
    Mr. Hunter. I think it has been remarkable how far we have 
come at NATO in the last ten years from a time, right after the 
Cold War, when a lot of people wanted to wrap it up. It was 
argued that there were no more threats. We will have a big 
party and off you go.
    We have managed to reconstruct NATO according to a number 
of propositions, including integrating the Central European 
states, including even trying to engage Russia. NATO is acting 
in a strange place that is far away from virtually all of the 
allies, called Bosnia and now Kosovo. That took a lot of 
American leadership. America is an effective European power in 
the post Cold War world-- I am pleased to say, begun by 
President Bush and carried on by President Clinton, with the 
solid support of the U.S. Congress throughout.
    The major task now, as you put it directly, is to get the 
European allies, individually and severally, to take more 
seriously precisely the kinds of threats that you are seeing. 
That leadership, right now, still has to come from America, but 
in time it also has to come from individual European countries 
and all of them collectively.
    I can't name for you any particular leader. We will have to 
press the Europeans as we have been doing. In fact, the allies 
in the last few days did put higher on the agenda the question 
of missile defense, but we will have to be very smart in the 
handling of this issue, if this is not to become a major 
divisive issue within the Alliance. But the leadership in the 
foreseeable future has to come from here, not from any 
individual European country.
    Mr. Cooksey. That said, do you think that their position, 
their posture, or the position that these leaders are taking is 
because they are playing to their political audience, that they 
feel that there is a sentiment out there that they need to 
spend more money on social programs and just blow off their 
military requirements?
    Mr. Hunter. I am afraid that there is a lot of that, Mr. 
Chairman. Leadership requires making tough decisions, and they 
have to understand what is required for their security. I am 
pleased that a number of things have been done, but it is a 
long way from here to where they have to be.
    Mr. Cooksey. Mr. Bolton, I notice in the first two 
paragraphs of your statement you said that we should openly 
acknowledge that the aim to align the foreign and defense 
policies of the EU's members into one shared and uniform policy 
is at times motivated either by a desire to distance themselves 
from United States influence or, in some cases, openly by anti-
American intentions.
    That basically addresses the question that I asked earlier. 
What is your position on this, or do you think that we have a 
lot of great world leaders out there that I have overlooked?
    Mr. Bolton. Unfortunately, you have not overlooked them. I 
think the experience that we have, we have to look at what has 
happened, the concrete experiences, and try and extrapolate 
from them. It is that as the Europeans withdraw from American 
leadership, or in the term of a program that some of them use, 
``American hegemony,'' that they are less likely to stand with 
us in crisis situations.
    Let me make two examples: first, dealing with Iran where 
the Europeans have consistently sought economic advantage in 
dealing with Iran despite our efforts to try and prevent that; 
and right next door, in the case of Iraq, where the anti-Saddam 
Hussein coalition has broken apart in front of our eyes with 
the French taking a very different view than they did just a 
few years ago. This is, in part, largely driven by domestic 
concerns, the question that you were raising a minute ago that 
Iain Duncan Smith touched on, and in this country, Richard 
Cooper of Harvard has commented on, that the European leaders 
are faced with much higher social welfare costs in their 
countries than we are faced with.
    Although they have desired the common currency for both 
political and economic reasons, its coming into being makes it 
harder for them in what is now a continental competitive 
economy to keep those welfare costs high. Since they don't see 
the same threats out there as we do from a defense point of 
view, it is tempting and it has been the fact that defense 
budgets are falling.
    This is in the course of a situation where in the Balkans 
there have been active military roles that the Europeans have 
wanted to play, and their defense budgets are still falling. So 
I see this as a real problem for NATO, where the rhetoric about 
the strong European pillar is not backed by the reality of 
defense expenditures.
    I heard Mr. Brok say that, in the case of France, although 
I think it is applicable to other European countries, we 
Americans should take comfort from the fact that their rhetoric 
is at one level, but their actual performance is something 
different. This doesn't give me an awful lot of comfort. I ask 
the question, what if some day the French performance matches 
their rhetoric? What if they actually do what they say?
    Mr. Cooksey. As they did with the Persian Gulf?
    Mr. Bolton. Exactly. So I am very concerned about this. I 
think it is self-deceptive not to acknowledge that we have a 
major crisis that we are facing in terms of NATO effectiveness 
and unity.
    Mr. Cooksey. Mr. Rodman, did you have a comment on my 
question or scenario?
    Mr. Rodman. About the scenario or the anti-American 
motivation----
    Mr. Cooksey. I noticed that you had your hand up.
    Mr. Rodman. I would second what John was just saying about 
the motivation. It is not hard to find quotations from European 
leaders--in addition to the French--who say that the motivation 
of the European project is to make Europe autonomous from the 
United States, to make Europe into a counterweight of the 
United States, to give Europe the ability to act independently 
of the United States. I think Maastricht reflected that.
    The collapse of the Soviet Union had two effects. One was 
that the common threat was gone; that is obvious. Second, it 
left us the ``hyperpower,'' and Europe is the continent where 
the idea of the balance of power was invented. Europeans, by 
reflex, see the imbalance of power across the Atlantic as a 
problem, and maybe the biggest problem, in their foreign 
relations. So there is a structural problem in the 
international system which compounds all of these technical 
disagreements that we are having. So, I agree with what John 
said in the paragraphs of his statement you were quoting.
    Mr. Cooksey. I will close with a comment. I was in the Air 
Force 30 years ago, and I had occasion to speak at the War 
College group, the NATO War College group, or a similar group, 
near Rome. Anyway, one of the messages that I gave them was 
that in this period when we don't seem to have any great 
leaders, that once they finish their time in the military they 
should go back home, take their uniforms off and then become 
involved in the political process, because that is a kind of 
leadership. I think these people have a lot of training in 
leadership, where a lot of leaders now have training in 
television skills.
    Mr. Hunter. I think that is exactly right, and I appreciate 
your saying it. When I was at NATO, people asked me what my 
toughest job was. I said that is simple: making sure of the 
support of the U.S. Congress and the American people and the 
next generation.
    When you talk about leadership in NATO, I recall what 
someone once said about a modern weapons systems: designed by 
geniuses to be run by idiots. What we have to do is try to make 
sure that these institutions are powerful enough and the common 
interests are powerful enough that you don't have to have a 
Churchill or a de Gaulle or a Roosevelt to make them work.
    Mr. Cooksey. All great leaders.
    Mr. Hunter I am less pessimistic. I don't see, except for 
the French maneuvering for short term advantage, a wave of 
anti-Americanism. I have been struck, even on issues like 
Kosovo, by the extent to which our leadership is being 
responded to and respected. There is grumbling in the ranks, 
but it is nothing even compared to the time of the Cold War.
    Mr. Cooksey. Thank you. You have been excellent witnesses, 
and your statements are quite thorough and detailed. I happen 
to agree with a lot of what you are saying, and that is the 
reason that I think you are such great witnesses.
    Mr. Bereuter. [Presiding.] Thank you, Dr. Cooksey, for 
taking over. This panel, in combination with the first, 
probably constitutes the most informed discussion that we have 
had about ESDI in this country and its implications for 
America. I thank you for your generous time and your patience.
    I have just a couple of concluding questions and 
observations to which any of you might wish to respond.
    First of all, I know it is untraditional, but it seems to 
me that the West was not prepared for the end of the Cold War, 
and therefore we had an inability to come to grips with the use 
of force early in the Yugoslav disintegration when it might 
have stopped the whole chain of events that is still unfolding. 
In any case, we didn't have a clear commitment with those 
concepts in place, theoretically at least.
    If you have a combined joint task force concept 
operationally, you have then, it seems to me, opportunities for 
coalition of the willing to pursue things that not all would 
agree on; and so maybe it does call into question for the first 
time--this is the untraditional part, I think--that there 
really is no need for a separate European pillar, really no 
need for a special entity inside or outside of NATO.
    Ambassador Hunter, given the things that you enunciated as 
coming out of the 1996 agreement, it seems to me as you see 
what is unfolding now in Brussels, you must be concerned that 
some of those objectives and those elements of agreement are 
not likely to be met. I would think so at least. I would think 
that it is inevitable that there would be a European Caucus 
within the North Atlantic Council, and that they will have to 
run back to Brussels, not just back to their national capitals, 
and this is going to be an impediment to rapid, concise action. 
In some cases, the trade problems that we have with the 
European Union are going to spill over into defense issues. 
That seems to be inevitable.
    Another unrelated observation, someone mentioned, when it 
comes to the chips being down, the French will be with us on 
crucial elements. They were with us in the Persian Gulf, but 
the largely untold story is that they were totally ineffective. 
They didn't have interoperability, and I think it was a wake-up 
call to them. Before we squabbled about commander slots down in 
Naples, it looked like they might move more directly to full 
involvement in NATO.
    Finally, I think that the three ``D's'' as enunciated by 
Secretary Albright and others--it seems to me that duplication 
and decoupling are just very, very likely if any kind of effort 
is developed to put the ESDI within the European pillar, within 
the European Union. I think, despite the best intentions, that 
is going to be what happens; and I would expect, given the 
proclivity of the Europeans to cut their defense expenditures 
all the time, it will mean a weaker NATO, it will mean a weaker 
European pillar within NATO.
    I will stop talking and see what you gentlemen would like 
to say in response to those observations.
    Mr. Hunter. I appreciate, Mr. Chairman, your being very 
direct on that. As I indicated before, maybe my most important 
concern with the structure as it is evolving is the possibility 
of a European Caucus within NATO. If we got to a position where 
some 11 countries, or 15 or whatever it would be, would sit 
around the North Atlantic Council table and, instead of 
wrestling with the problems and coming up with solutions, the 
way the Council actually works, would run back to the European 
Council for new instructions, it might become ineffective and 
we might then diminish our interest in NATO. I think this point 
needs to be made very, very forcefully to the Europeans.
    Regarding France, I think you put that very well, what 
happened regarding the Persian Gulf and their subsequent 
incentive to move back toward NATO. In fact, short of France's 
actually rejoining the integrated structure, it is doing a lot 
with NATO right now. I don't think that the French have gone 
far enough, and I think they still have to recognize that.
    Also, when we talk about two of those three ``D's'', we 
will have to press very hard. If in any way this became a 
matter of decoupling, the Europeans would be the losers just as 
much, if not more, than we. If they did try to disperse rather 
than keeping the focus on the transatlantic capabilities, they 
would be the poorer.
    With regard to WEU's being absorbed by the European Union, 
yes, there are some real problems, and it is will take a while 
to shape it. In his speech in Strasbourg a week and a half ago, 
President Chirac actually delayed the moment when this would 
happen, delayed the demise of the WEU; but the cultural and 
political developments that are involved in this are 
extraordinary. If the Europeans don't get it right, they will 
find that they have more integration but less security.
    Mr. Bereuter. Mr. Rodman has looked at President Chirac's 
comments in Strasbourg, and he drew the conclusion that Chirac 
vehemently opposed the idea of finding an institutional link 
between the EU and NATO. That is very troubling, and I don't 
think that we can dismiss a comment like that from the 
President of France.
    Mr. Hunter. President Chirac said it was premature to talk 
about this link, but he has no agreement with the other allies. 
He is isolated.
    Mr. Bereuter. We will get to all four of you. Mr. Rodman.
    Mr. Rodman. I think there is clearly inevitability in the 
European project. There is enormous momentum behind the 
European idea--psychological, political, social, emotional, 
ideological even. They are building Europe.
    The Atlantic idea does not have that momentum, no matter 
how much we try to remind them or to champion the cause of 
Atlantic unity. It is not a coincidence that Javier Solana sees 
the EU job as a promotion.
    Our job is to harness this European energy somehow and keep 
it within the Alliance framework, and that is why I was upset 
by what President Chirac was saying, because the sooner we face 
the institutional question, the easier it may be to solve.
    To go back and supplement the beginning of what I said, one 
wise thing that President Chirac said, is that European publics 
see are more likely to spend more on defense if they are asked 
to do it in the name of Europe than if they are asked to do it 
in the name of the Alliance. I add that to the list of things 
that suggest that the European idea has enormous power. We 
should not try to stop it, but somehow to harness it and make 
sure that in the security arena the Alliance is the major 
institution of Western unity.
    Mr. Bereuter. Do you think that his conclusion is likely, 
that, in fact, they will be more willing to put up money for 
Europe?
    Mr. Rodman. I believe that is the domestic political 
reality. But the battle is not lost if we can make sure that 
the European institution is somehow in the Alliance framework.
    Mr. Bereuter. Dr. Serfaty, did you have a comment that you 
wanted to make?
    Mr. Serfaty. The European idea is an American idea. It is 
one that was made possible in the aftermath of World War II in 
order to force the nationalisms of Europe into a cage from 
which there would be no escape. This was a way for us, in the 
United States, to avoid the kind of shuttle diplomacy which we 
had been engaged into during the previous 50 years, in 1917 and 
1941.
    That idea, which is an American idea, has now come to the 
end game. In 1999--2007 the 15 members of the European Union 
are going to make decisions that might be tantamount to the 
recycling of the national states into member states of an 
institution to which they belong.
    We do not know yet what kind of governance will be set in 
place, or what types of capabilities will be available, and how 
they should be used. I believe we should rejoice over the fact 
that this idea is indeed being fulfilled, and because it has 
worked so well to the benefit of American interests over the 
past 50 years--economic, political, cultural and security--we 
should do whatever we can over the next several years to help 
manage the fulfillment of the emergence of a Europe.
    I am not concerned about that Europe entering into an 
adversarial relationship with the United States. President 
Chirac would be surprised and flattered to see that his 
speeches in Strasbourg and elsewhere were heard and listened to 
as carefully as apparently has been the case here. That was not 
the case in Europe.
    The meaning of the idea of Europe is precisely the 
devaluation of the influence of any one nation-state that 
becomes more and more sensitive to the discipline of the 
collective way of the institution to which it belongs.
    Mr. Bereuter. Thank you.
    Mr. Bolton.
    Mr. Bolton. Thank you, Mr. Chairman.
    I do not think that the ``European ideal'' is inevitable. 
There is a real disjunction between political elites on the one 
hand and the average citizens of Europe on the other, and what 
they think the final destination of the European enterprise is.
    I don't think that it is an American idea playing out. I 
don't think that it is an American idea that the insular, 
protectionist, isolationist economic policies that we see 
increasingly coming out of some directorates of Brussels are in 
our interests. I fear that same insularity that we see in so 
many economic policies emanating from Europe would emanate from 
a common European security and defense identity as well.
    I think the risks, if we are not more assertive about 
American interests, are that ``European correspondence,'' the 
flow of policy at low levels through European foreign and 
defense ministries that already exists already forms an 
informal caucus in NATO; and it is one of the reasons that I am 
pessimistic and nervous about it.
    We have already seen it play out, as I mentioned, in the 
context, not nearly as important to be sure, of Western 
European group meetings within the United Nations. It is just 
incredible where you have discussions and when you reach the 
outer limit of what the European Union consensus is, the 
Western group meetings stop and all of the Western Europeans 
and other governments get up and walk out of the room so the 
European Union can come to its next consensus. If we are not 
careful, we will be at that point in NATO in the very near 
future.
    Mr. Bereuter. Gentlemen, you have provided a good 
background brief for Mr. Davis and me to go to the Amsterdam 
meeting of the NATO Parliamentary Assembly tomorrow if we can 
ever get out of here and adjourn. It is extremely helpful. I 
think this was an outstanding contribution that you helped 
provide for us and for the listening and reading American 
public.
    Thank you for the generous amount of your time and for your 
testimony today. The Committee is adjourned.
    [Whereupon, at 1:03 p.m., the Committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                           November 10, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4589.001
    
    [GRAPHIC] [TIFF OMITTED] T4589.002
    
    [GRAPHIC] [TIFF OMITTED] T4589.003
    
    [GRAPHIC] [TIFF OMITTED] T4589.004
    
    [GRAPHIC] [TIFF OMITTED] T4589.005
    
    [GRAPHIC] [TIFF OMITTED] T4589.006
    
    [GRAPHIC] [TIFF OMITTED] T4589.007
    
    [GRAPHIC] [TIFF OMITTED] T4589.008
    
    [GRAPHIC] [TIFF OMITTED] T4589.009
    
    [GRAPHIC] [TIFF OMITTED] T4589.010
    
    [GRAPHIC] [TIFF OMITTED] T4589.011
    
    [GRAPHIC] [TIFF OMITTED] T4589.012
    
    [GRAPHIC] [TIFF OMITTED] T4589.013
    
    [GRAPHIC] [TIFF OMITTED] T4589.014
    
    [GRAPHIC] [TIFF OMITTED] T4589.015
    
    [GRAPHIC] [TIFF OMITTED] T4589.016
    
    [GRAPHIC] [TIFF OMITTED] T4589.017
    
    [GRAPHIC] [TIFF OMITTED] T4589.018
    
    [GRAPHIC] [TIFF OMITTED] T4589.019
    
    [GRAPHIC] [TIFF OMITTED] T4589.020
    
    [GRAPHIC] [TIFF OMITTED] T4589.021
    
    [GRAPHIC] [TIFF OMITTED] T4589.022
    
    [GRAPHIC] [TIFF OMITTED] T4589.023
    
    [GRAPHIC] [TIFF OMITTED] T4589.024
    
    [GRAPHIC] [TIFF OMITTED] T4589.025
    
    [GRAPHIC] [TIFF OMITTED] T4589.026
    
    [GRAPHIC] [TIFF OMITTED] T4589.027
    
    [GRAPHIC] [TIFF OMITTED] T4589.028
    
    [GRAPHIC] [TIFF OMITTED] T4589.029
    
    [GRAPHIC] [TIFF OMITTED] T4589.030
    
    [GRAPHIC] [TIFF OMITTED] T4589.031
    
    [GRAPHIC] [TIFF OMITTED] T4589.032
    
    [GRAPHIC] [TIFF OMITTED] T4589.033
    
    [GRAPHIC] [TIFF OMITTED] T4589.034
    
    [GRAPHIC] [TIFF OMITTED] T4589.035
    
    [GRAPHIC] [TIFF OMITTED] T4589.036
    
    [GRAPHIC] [TIFF OMITTED] T4589.037
    
    [GRAPHIC] [TIFF OMITTED] T4589.038
    
    [GRAPHIC] [TIFF OMITTED] T4589.039
    
    [GRAPHIC] [TIFF OMITTED] T4589.040
    
    [GRAPHIC] [TIFF OMITTED] T4589.041
    
    [GRAPHIC] [TIFF OMITTED] T4589.042
    
    [GRAPHIC] [TIFF OMITTED] T4589.043
    
    [GRAPHIC] [TIFF OMITTED] T4589.044
    
    [GRAPHIC] [TIFF OMITTED] T4589.045
    
    [GRAPHIC] [TIFF OMITTED] T4589.046
    
    [GRAPHIC] [TIFF OMITTED] T4589.047
    
    [GRAPHIC] [TIFF OMITTED] T4589.048
    
    [GRAPHIC] [TIFF OMITTED] T4589.049
    
    [GRAPHIC] [TIFF OMITTED] T4589.050
    
    [GRAPHIC] [TIFF OMITTED] T4589.051
    
    [GRAPHIC] [TIFF OMITTED] T4589.052
    
    [GRAPHIC] [TIFF OMITTED] T4589.053
    
    [GRAPHIC] [TIFF OMITTED] T4589.054
    
    [GRAPHIC] [TIFF OMITTED] T4589.055
    

</pre></body></html>
